<html>
<title> - LAW ENFORCEMENT AND THE FIGHT AGAINST METHAMPHETAMINE: IMPROVING FEDERAL, STATE, AND LOCAL EFFORTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
   LAW ENFORCEMENT AND THE FIGHT AGAINST METHAMPHETAMINE: IMPROVING 
                   FEDERAL, STATE, AND LOCAL EFFORTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 23, 2005

                               __________

                           Serial No. 109-103

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-173                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
        Nicholas Coleman, Professional Staff Member and Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 23, 2005..................................     1
Statement of:
    Oetjen, Gary W., Assistant Special Agent in Charge, 
      Louisville, KY District Office, Drug Enforcement 
      Administration; and John Sommer, director, Ohio High 
      Intensity Drug Trafficking Area [HIDTA]....................    11
        Oetjen, Gary W...........................................    11
        Sommer, John.............................................    21
    Vore, Dave, Montgomery County sheriff; Ralph Fizer, Jr., 
      Clinton County sheriff; Tom Ariss, Warren County sheriff; 
      Commander John Burke, Greater Warren County Drug Task 
      Force; Jim Grandey, esq., Highland County Prosecutor; and 
      Commissioner Randy Riley, Clinton County Administrator.....    50
        Ariss, Tom...............................................    59
        Burke, John..............................................    64
        Fizer, Ralph, Jr.........................................    55
        Grandey, Jim.............................................    72
        Riley, Randy.............................................    76
        Vore, Dave...............................................    50
Letters, statements, etc., submitted for the record by:
    Ariss, Tom, Warren County sheriff, prepared statement of.....    62
    Burke, Commander John, Greater Warren County Drug Task Force, 
      prepared statement of......................................    67
    Fizer, Ralph, Jr., Clinton County sheriff, prepared statement 
      of.........................................................    57
    Grandey, Jim, esq., Highland County Prosecutor, prepared 
      statement of...............................................    74
    Oetjen, Gary W., Assistant Special Agent in Charge, 
      Louisville, KY District Office, Drug Enforcement 
      Administration, prepared statement of......................    14
    Riley, Commissioner Randy, Clinton County Administrator , 
      prepared statement of......................................    78
    Sommer, John, director, Ohio High Intensity Drug Trafficking 
      Area [HIDTA], prepared statement of........................    26
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Tobin, Pete, deputy director, Ohio High Intensity Drug 
      Trafficking Area [HIDTA], prepared statement of............    32
    Vore, Dave, Montgomery County sheriff, prepared statement of.    53


   LAW ENFORCEMENT AND THE FIGHT AGAINST METHAMPHETAMINE: IMPROVING 
                   FEDERAL, STATE, AND LOCAL EFFORTS

                              ----------                              


                        TUESDAY, AUGUST 23, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Wilmington, OH.
    The subcommittee met, pursuant to notice, at 9 a.m., in the 
McCoy Room at the Kelley Center, Wilmington College, 
Wilmington, OH, Hon. Mark Souder (chairman of the subcommittee) 
presiding.
    Present: Representatives Turner, Cummings, and Souder.
    Staff present: Nicholas Coleman, professional staff member 
and counsel; and Malia Holst, clerk.
    Mr. Souder. The subcommittee will now come to order.
    Good morning, and we thank you all for coming. Today we 
will continue our subcommittee's work on the problem of 
methamphetamine trafficking and abuse--a problem that is 
ravaging the entire Nation and putting a severe strain on law 
enforcement agencies at State and local levels.
    I would particularly like to thank Congressman Mike Turner 
for inviting us here to Wilmington for this important hearing. 
I look forward to working with him as Congress moves ahead with 
anti-methamphetamine legislation.
    I would also like to thank our ranking member, Congressman 
Elijah Cummings, for taking the time from his August recess to 
join us here in Ohio today. Even though meth is not yet one of 
the primary drug threats in Congressman Cummings' own district 
in inner-city Baltimore, he has always been very supportive of 
our national efforts to stop this deadly drug.
    This is actually the 10th hearing focusing on meth held by 
our subcommittee since 2001. In places as diverse as Indiana, 
Arkansas, Hawaii, and Minnesota, I have heard moving testimony 
about how this drug has devastated lives and families. But I 
have also learned about the many positive ways that communities 
have fought back, targeting the meth cooks and dealers, trying 
to get addicts into treatment, and working to educate young 
people about the risks of meth abuse.
    Today we are focusing particular attention on the challenge 
of meth to Federal, State, and local law enforcement agencies. 
That challenge is complicated by the way this drug is made, and 
by who is making it. Most meth comes from the so-called 
``superlabs'' in California and northern Mexico, and Congress 
is currently exploring ways to address that problem.
    Direct action against the labs themselves, and the 
traffickers controlling them, is part of the solution. But an 
even more important part is controlling the supply of precursor 
chemicals, notably pseudoephedrine, the key component in most 
cold medicines. We need a better international system for 
controlling the manufacture and distribution of pseudoephedrine 
to prevent its being diverted to meth production.
    However, Congress also needs to address the other source of 
meth supply: the small, clandestine or ``clan'' meth labs that 
generate so much damage and misery for local communities. The 
amount of meth that is created at these smaller labs is 
relatively small, yet they have a huge impact on the community 
due to the environmental damage and health risks that they 
create.
    The National Association of Counties recently published a 
survey, which details the enormous impact that meth is having 
on law enforcement agencies. The survey reported that nearly 60 
percent of the responding counties stated that methamphetamine 
was their largest drug problem; 67 percent reported increases 
in meth-related arrests. Over half of the agencies surveyed 
stated that at least 1 in 5 jail inmates are serving 
methamphetamine-related sentences.
    Proposals to give Federal help to this ground fight against 
clan labs have taken two general forms--first, proposed retail 
and wholesale regulations of pseudoephedrine products; and, 
second, financial assistance to State and local agencies to 
deal with the cost of investigating and cleaning up lab sites. 
I believe that both approaches will be necessary, but the 
question is how they can best be implemented.
    Nearly everyone agrees that we need to better regulate 
pseudoephedrine products. As they say, however, the devil is in 
the details. Precisely what regulations are needed at the 
Federal level, and what kind of exceptions should apply? Some 
ideas--including import controls, better wholesale market 
monitoring, and repealing Federal exemption that allows 
unlimited sales of pills in blister packs--are fairly non-
controversial. I have proposed legislation that would put all 
of these into Federal law.
    Congress is also considering legislation for another 
approach, putting pseudoephedrine on Schedule V of the 
Controlled Substances Act, which would put most cold products 
behind the pharmacy counter, and prevent non-pharmacies from 
selling them. A number of States have already passed such 
regulations. In fact, the overall majority are currently 
considering it. And hopefully we will have data soon showing 
how effective they, in fact, are. But we need to be mindful of 
the impact of these laws on consumers and on small businesses. 
We don't want to pass laws that unnecessarily burden consumers 
in rural and small towns that prevent everyone but Wal-Mart and 
Target from selling cold medicines.
    The second major proposal involves providing Federal 
financial and other assistance to State and local law 
enforcement agencies. The cost of cleaning up meth labs is very 
high--much higher than most rural agencies can afford. 
Moreover, the health hazard of meth labs is such that local 
police officers often have to wait for 6 hours or more for the 
State lab unit to arrive. That's time wasted, when they can't 
protect the community from other threats.
    The Federal Government must do something to help with this 
serious problem, because the Nation's fight against illegal 
drug trafficking depends on the ability of State and local 
agencies to do their part. But we also have to recognize that 
we will never have enough money to fund every anti-meth effort. 
We need a mechanism for targeting limited Federal resources in 
the areas with the most significant problem, and where they 
will have the most significant impact.
    My bill, and a number of other bills, try to address these 
various issues, but we need an overall, national anti-meth 
strategy if we are ever going to get ahead of the meth problem. 
In this, I have frankly been very disappointed by the 
administration, which has not yet developed such a 
comprehensive strategy.
    I am a strong supporter of President Bush, but I believe 
his administration can do better than the rather tentative 
anti-meth initiatives announced last week in Tennessee. They 
are a nice first step, but we need a lot more leadership on 
this issue.
    At today's hearing, we will hear from the Federal, State, 
and local agencies that are trying to provide local leadership 
against the meth epidemic right here in southern Ohio. We 
welcome Gary Oetjen, Assistant Special Agent in Charge of the 
Drug Enforcement Administration; and John Sommer, Director of 
the Ohio High Intensity Drug Trafficking Area, the so-called 
HIDTA program. The HIDTA program has set a new standard for 
improving Federal, State, and local law enforcement 
cooperation, and I look forward to hearing about HIDTA's impact 
on the meth problem.
    On the second panel we will hear from Commissioner Randy 
Riley of Clinton County; Sheriff Ralph Fizer, also from Clinton 
County; Sheriff Tom Ariss of Warren County; Sheriff Dave Vore 
from Montgomery County; Commander John Burke of the Greater 
Warren County Drug Task Force; and Jim Grandey, the Highland 
County Prosecutor.
    We thank everyone for taking the time to join us this 
morning, and look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.001
    
    [GRAPHIC] [TIFF OMITTED] T5173.002
    
    Mr. Souder. Now I would like to yield to our distinguished 
ranking member, Mr. Cummings, for an opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I want 
to thank Mr. Turner for inviting us to his district, and we 
want to thank you, Mr. Turner, for your leadership on this 
issue. We know what it means to you. We know that you have put 
it at the forefront of your priorities, and so we really do 
appreciate this opportunity to be here.
    Mr. Chairman, I want to thank you for convening today's 
field hearing on law enforcement and the fight against 
methamphetamine. Today's hearing is the 10th in a series of 
hearings the subcommittee has held on the impact of 
methamphetamine on communities across this Nation. And I think 
that speaks volumes about your leadership and your commitment 
to this extremely challenging issue.
    I might add that this is a bipartisan effort. Wherever 
drugs are affecting people, illegal drugs affecting people 
throughout our Nation, we stand together. Methamphetamine, or 
meth, is not a new drug. In fact, it has been around for 
decades. Meth originated in south California, and its 
production, trafficking, and use were traditionally limited to 
California and a small number of western States, where the 
primary producers, traffickers, and users were outlaw 
motorcycle gangs and affiliated populations.
    Over the past couple of decades, however, Mexico- and 
California-based Mexican drug traffickers have become the 
primary large-scale producers of meth through their operation 
of so-called ``superlabs'' that are capable of producing 10 or 
more pounds of high purity meth in a single production cycle.
    Small-scale production and distribution of meth has also 
increased rapidly, as clandestine labs, some by individual 
users capable of producing very small quantities of the drug, 
have proliferated in many areas of this country. Clandestine 
labs are particularly prevalent in rural areas where they are 
difficult for law enforcement to detect.
    And let me add here to all of our officers, to the DEA, and 
HIDTA, and all of those in law enforcement, I want you to 
understand that our committee and subcommittee are dedicated--
we understand that you are a--truly a fed blue line, and that 
we want to do everything in our power to help you do your jobs.
    The trends that I have talked about have caused the Midwest 
Region to experience tremendous growth in both trafficking and 
production, and that activity is spreading into the southeast 
and the northeast regions.
    As a result, according to a recent report by the National 
Association of Counties, the meth epidemic in America--meth is 
now the No. 1 illegal drug threat facing most of the 500 
counties that participated in a survey of local law enforcement 
agencies. Unfortunately, Ohio is no exception, as lab seizures, 
prosecutions, and the myriad of problems that accompany meth 
addiction and production have increased dramatically in this 
State.
    For many reasons, meth is an especially dangerous drug, 
with devastating consequences for individual users, as well as 
the communities in which they live. A powerful stimulant that 
affects the central nervous system, meth is derived from a 
chemical compound contained in over-the-counter nasal 
decongestants and bronchia inhalers, as well as in certain 
weight-loss treatments.
    Meth can be smoked, snorted, orally ingested, or injected, 
and is known by a variety of street names depending upon the 
form in which it is used. Meth frequently is produced in a 
powder form, and also in a rock form known as crystal meth or 
ice. Because of its high purity, the intense and prolonged high 
it produces, and the fact that it can be smoked, ice has become 
a popular drug among non-traditional users, including young 
people who use the drugs at rave parties.
    The side effects of meth use are dangerous and sometimes 
fatal. They include convulsions, high body temperature, stroke, 
cardiac arrythmia, stomach cramps, and shaking. Meth is highly 
addictive, and abuse of the drug can cause violent behavior, 
anxiety, and insomnia, in addition to psychotic effects such as 
paranoia, hallucinations, mood swings, and delusions.
    Persistent users develop a tolerance for the drug that 
requires a user to take increasing amounts to achieve the 
desired effects. Because meth can be manufactured using 
ingredients purchased in U.S. retail stores, small clandestine 
labs are often found in homes, apartments, hotel rooms, rented 
storage spaces, and trucks.
    Although most of these labs produce less than 10 pounds of 
meth in a year, their impact on the environment and the costs 
of cleaning up the toxic waste from these sites can be 
enormous. Because the ingredients are not only toxic but 
extremely volatile in combination, these labs also pose a 
serious danger to the so-called meth cooks who make the drug, 
as well as individuals living in close proximity to the 
activity.
    All too often children are found in small-scale labs. These 
children are not only at great risk of physical harm from 
explosions or exposure to toxic chemicals, but they are also 
victims of neglect or abuse, because of the drug's effects on 
their parents or other relatives. These circumstances have led 
to a large number of children being taken from the custodial 
control of their parents and placed in foster homes, adding 
another tragic dimension to this problem.
    Meth abuse has not yet--not yet--become a major problem in 
communities of Baltimore City and Baltimore County, Howard 
County, in Maryland, which I represent. But the rapid spread of 
meth production, trafficking and abuse in the United States, 
underscores the fact that America's drug problem affects all 
parts of America, and that no community is immune to the 
introduction of a dangerous, new drug threat.
    The possibility that could become a major problem in large 
eastern cities like Baltimore is a major concern to all of us. 
According to the Drug Enforcement Administration, aggressive 
enforcement and tighter controls on the commercial importation 
and distribution of meth, meth precursor products, have 
contributed to a sharp decline in the number of superlabs 
operating in the United States.
    At the same time, however, superlabs in Mexico have 
increased in number. Widespread trafficking of meth in the 
United States by Mexican drug trafficking organizations 
continues, and clandestine labs continue to proliferate in many 
areas of our country. Effective law enforcement efforts, 
including cooperation and coordination between Federal, State, 
and local agencies will continue to be necessary to combat this 
problem.
    Regional task force, the HIDTA program, which I am very 
pleased to say that this committee played a major role in 
making sure that we retain the funding for, and the Justice 
Department grant programs to support State and local 
enforcement and cleanup efforts, must continue to play a 
substantial role.
    Congress must consider what additional legislative steps 
can and should be taken, including whether consumer access to 
cough and cold medicines, and other retail products, should be 
restricted. Today's hearing offers the opportunity to hear and 
consider the views of important players in the fight against 
meth in Ohio, and I welcome their input concerning how we can 
improve on what we are doing to fight meth at the Federal, 
State, and local level.
    Finally, Mr. Chairman, as I have said many times before 
this committee, I believe it is also important to recognize the 
importance of drug treatment and how it can complement 
enforcement efforts in addressing this epidemic. Research for 
the Center for Substance Abuse Treatment shows that meth 
addiction can be effectively treated, and that the benefits of 
treating meth addiction are similar to the benefits derived 
from treating addiction to other drugs.
    If use of the drug is stopped or reduced, criminal activity 
and recidivism decline, employment status and housing status 
improve, and overall health improves. We have seen, with regard 
to cocaine and heroin abuse in Baltimore, that treatment and 
law enforcement must--must--go hand in hand to maximize our 
impact on reducing addiction, drug abuse, and related social 
ills. And I believe the same formula will yield stronger 
results elsewhere.
    That said, I thank you, Mr. Chairman, again, and I thank 
you, Mr. Turner, for having us in your district.
    Mr. Souder. Before I yield to Chairman Turner, who has been 
a very strong leader in our Government Reform Committee, and a 
great addition in all these efforts in fighting meth, I want to 
thank him in particular for getting our distinguished ranking 
member here to a real small town.
    He came to a hearing in Fort Wayne. He represents inner-
city Baltimore. We have been up there, and I have learned more 
about the streets of Baltimore and the struggles in many of his 
very tough parts of his district, but he came to Fort Wayne 
once, and he keeps referring to it in Washington as a small 
town. [Laughter.]
    And it is 230,000 people. Small town, from Pittsburgh west, 
many towns, in fact the majority of towns, have marked the 
highest building as a great--and you can tell that here rivaled 
by the water tower. And that is the true midwest, and you are 
getting a dose of that.
    If we had time, we would take him out and have him milk a 
cow, get a little bit of cheese--[laughter]--check out the 
difference of what a real bean is, not a green bean but a 
soybean, a few things like that. But thank you for having us 
here today.
    Mr. Turner. Mr. Chairman, thank you so much for bringing 
the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources here to Wilmington. I want to thank Ranking Member 
Cummings for being here.
    Both of you are national leaders in this issue, and your 
efforts to highlight the problems of meth and to look for 
solutions are very important. And Chairman Souder has come from 
Indiana, our neighboring State, but, Mr. Cummings, appreciate 
you coming from Maryland.
    Both of these gentlemen have taken time from their 
districts and from their families to be here. And why are they 
here? They are here not only because they have insight in this 
issue, and they are leaders on the national level for this, but 
also because they want to hear locally what's going on in our 
community and what we are experiencing, so that we can look at 
national solutions for this issue.
    I appreciate both of you taking your time from your 
districts and your families to be here. But, more importantly, 
we all appreciate the fact that on a national level that you 
have made this an important issue. And, Mr. Cummings and 
Chairman Souder, you have made certain that--not only that 
there's focus on this but that there's a search for solutions. 
So thank you for bringing this hearing here today and for your 
efforts on the national level.
    I want to thank our panel of witnesses and what they are 
going to bring to this issue--the witnesses that we have are 
bfrom Clinton, Warren, Highland, and Montgomery Counties. The 
testimony that we receive today will be helpful in examining 
the problems of methamphetamine abuse nationally and locally, 
and how we in Congress can assist local law enforcement 
officials in combating meth abuse.
    While a lot of the tension on the war on drugs has been 
focused on the problems of cocaine and heroin, methamphetamine 
abuse is reaching crisis levels all over the country and here 
in southern Ohio. The effects of meth usage on the body are 
dramatic.
    In the short term, meth significantly increases the level 
of dopamine released from the brain. A single dosage of meth 
can result in dangerously high body temperatures and even cause 
convulsions. In the long term, methamphetamine use appears to 
cause reduced levels of brain activity, resulting in symptoms 
like those of Parkinson's Disease.
    Nationally, meth abuse has become an increasing problem. 
According to the 2002 National Survey on Drug Use and Health, 
12.3 million Americans age 12 and older have tried meth at 
least once in their lifetime--5.2 percent of the population 
with the majority of past-year users being between 18 and 34 
years of age.
    Since 2003, 32 active labs were closed in Clinton County. 
And since 2004, Warren and Highland Counties have closed almost 
50 active meth labs combined. Meth abuse has also increased 
other crimes, such as theft and home burglaries. For law 
enforcement, fighting meth is dangerous, not only because of 
the harmful effects of the drug that it has on users and their 
families, but also because meth labs are highly toxic and 
volatile, making them a hazard to clean.
    The meth problem has also reached our schools, and that's 
why I appreciate both of you raising the issue of the effects 
of this drug on people, so that we can get the message out to 
our youth to avoid drug abuse and, of course, to avoid meth.
    Again, Mr. Chairman, thank you for your leadership on this 
critical issue. I look forward to hearing from today's 
distinguished panel of witnesses, and to working with you to 
address meth abuse issues.
    Thank you.
    Mr. Souder. Thank you. What I often do when we are--let me 
do first the procedural matters. Before we hear testimony, we 
will take care of some procedural matters. First, I ask 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions to the hearing record, 
and that any answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members and 
witnesses may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Finally, I ask unanimous consent that all Members present 
be permitted to participate in the hearing. Without objection, 
so ordered.
    When am I on the road, I usually try to explain a little 
bit what this committee does and our process here. The 
Government Reform Committee actually is older than the 
authorizing committees, and we do oversight. It was pretty 
evident under the last administration that many of the 
investigations that we did from the Travelgate on through were 
done by Government Reform and Oversight.
    Our subcommittee is a little bit different in the sense we 
do oversight on the narcotics issue, but we also have 
legislative jurisdiction over the Office of National Drug 
Control Policy [ONDCP]. And so we don't just do oversight, we 
actually do authorizing through this subcommittee, which is 
relatively unique.
    The way most people now--rather than thinking back a number 
of years--think of this is the witnesses can pretend you are 
Mark McGwire, and now it was a lot easier to get--we did the 
steroids hearing through Government Reform. We moved it up to 
the full committee level. We swear in our witnesses, because it 
is an oversight committee. Rafael Palmiero is learning that 
sometimes we can actually prosecute for perjury. The question 
was: is it relevant? And was he abusing at the time he 
testified?
    You all were much easier to get here today than Mark 
McGwire, who for days moved around so he could not get a 
subpoena served. And now we know why. But this is the committee 
that does those type of hearings, and that is part of our 
function--to see that the laws of the United States are 
implemented and what laws needed to be developed, so we can 
then move it into the legislative process and the 
appropriations process.
    We always start our hearings trying to get the--if there 
are Federal witnesses, they start on the first panel, as is the 
tradition of the committee. And we try to have them lay out 
kind of the regional approach that is occurring in the area, 
and then pick up the State and local. This hearing particularly 
is focused on law enforcement. We have been doing all of the 
different aspects.
    And yesterday, in Fort Wayne, the Director of SAMHSA, the 
Substance and Alcohol and Mental Health Administration, was in 
Fort Wayne, and we spent most of the day with treatment 
providers trying to figure out how to deal with meth. But 
normally the first thing that hits is the law enforcement 
problem. Then we move to trying to figure out how to treat it, 
and then it dawns on everybody that maybe we ought to prevent 
it.
    And the reason I keep talking about a national strategy, it 
would be nice to get that a little bit in a different order in 
the places where it hasn't hit yet. And as we see it often in 
the rural areas, it isn't even--even though Fort Wayne region 
is eighth hardest hit in the Nation, there is none in Fort 
Wayne.
    And trying to get ahead of this before it hits the urban 
areas means we ought to get prevention at the front end, so 
then we can try to work with the law enforcement and treat 
those, in fact, where we don't get it prevented, and they get 
caught in the law enforcement, then treat. And we have this by 
not having a coordinated national strategy right now. We have 
this whole thing out of whack, and we only are going backward 
with it, and yet it is a freight train heading toward the big 
cities.
    And as we heard in Minneapolis/St. Paul, they got whacked. 
In 12 months they went from no kids in child protection to 80 
percent of the kids in child protection were meth addicts. And 
when it hits a city, it is much harder than crack, and that is 
partly why we are getting attention beyond the rural areas of 
the United States, because as it hits Omaha, as it hits 
Minneapolis/St. Paul, as we see it move into bigger cities and 
at the edge of Detroit and the edge of New Orleans, we are 
starting to see it start to move in. This all of a sudden will 
grab attention levels like it has never done before.
    So our first panel is composed of Gary Oetjen, Assistant 
Special Agent in Charge of the Louisville, KY District Office 
of DEA, and John Sommer, Director of the Ohio High Intensity 
Drug Trafficking Area [HIDTA].
    So as an oversight committee, it is our standard practice 
to ask all our witnesses to testify under oath. So please stand 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Thank you. Let the record show that the 
witnesses responded in the affirmative, and we will start with 
Mr. Oetjen.

   STATEMENTS OF GARY W. OETJEN, ASSISTANT SPECIAL AGENT IN 
   CHARGE, LOUISVILLE, KY DISTRICT OFFICE, DRUG ENFORCEMENT 
ADMINISTRATION; AND JOHN SOMMER, DIRECTOR, OHIO HIGH INTENSITY 
                 DRUG TRAFFICKING AREA [HIDTA]

                  STATEMENT OF GARY W. OETJEN

    Mr. Oetjen. Chairman Souder, distinguished Members of 
Congress, my name is Gary Oetjen, and I am the Assistant 
Special Agent in Charge of the Drug Enforcement Administration 
for the Louisville District Office.
    On behalf of DEA Administrator Karen Tandy, and Detroit 
Field Division Special Agent in Charge Robert Corso, I 
appreciate your invitation to testify today regarding DEA's 
efforts to combat methamphetamines in the State of Ohio.
    Detroit Field Division's area of responsibility includes 
the States of Michigan, Ohio, and Kentucky. In my capacity as 
Assistant Special Agent in Charge of the Louisville District 
Office, I am responsible for all of the DEA offices and 
operations in the State of Kentucky, and also the Cincinnati, 
OH resident office.
    With me today is Anthony Mirata, the Assistant Special 
Agent in Charge of the Columbus area district office. And Mr. 
Mirata is responsible for the five other offices throughout the 
State of Ohio.
    Until the late 1980's, methamphetamine was a relatively 
unknown drug outside the States along the west coast. However, 
by the early 1990's, methamphetamine was gaining in popularity 
and began spreading across the country. Today, few places in 
the United States have not felt its impact. The State of Ohio 
is no exception.
    In Ohio and across the Nation, we have initiated and led 
successful enforcement efforts focusing on methamphetamine and 
its precursor chemicals and have worked jointly with our 
Federal, State, and local law enforcement partners to combat 
this drug. As a result of DEA's efforts and those of our law 
enforcement partners in the United States and Canada, we have 
seen a dramatic decline in methamphetamine superlabs in the 
United States. But with this drop in superlab activity, we have 
also seen an increase of superlabs in Mexico.
    No precise breakdown is available, but current drug and lab 
seizure data suggests that roughly two-thirds of the 
methamphetamine used in the United States comes from the larger 
labs, increasingly in Mexico, and that probably is--about one-
third of the methamphetamines consumed in this country comes 
from the small toxic labs.
    Though methamphetamine is clearly a growing threat in Ohio, 
currently the greatest drug threat in Ohio is cocaine, in both 
the form of powder and crack. The most violent crime in Ohio is 
attributed to the distribution and the abuse of cocaine and 
crack cocaine. Additionally, local law enforcement agencies 
throughout Ohio most frequently identified cocaine, either 
powdered or crack, as the drug that contributes most to the 
property crime in their respective areas.
    Methamphetamine manufacturing and use are increasing 
throughout the State. In 2000, Ohio law enforcement agencies 
reported just 29 methamphetamine-related instances to El Paso 
Intelligence Center [EPIC]. In 2004, this number had increased 
to 286 instances in the State of Ohio, with 162 being actual 
methamphetamine labs. In 2004, Summit County, OH, which 
encompasses the Akron area, accounted for over 25 percent of 
the State's methamphetamine lab seizures.
    The vast majority of labs seized in Ohio were small, toxic 
labs, which typically produce 1 to 2 ounces of meth. Arrest 
data shows that the predominant manufacturers and users of 
methamphetamine in Ohio are caucasian males and females.
    We are well aware that combating this drug requires a 
concentrated effort by law enforcement at all levels. The 
strong working relationship that the DEA has developed with 
State and local law enforcement is an essential element of this 
effort.
    Another tool in this fight comes to DEA's Office of 
Training, which shares our expertise by training thousands of 
State and local partners from all over the country as well as 
our international counterparts. Since fiscal year 2002, the DEA 
has provided clandestine laboratory training to more than 100 
officers here in Ohio.
    DEA also provides cleanup assistance to law enforcement 
agencies across the country as they battle this drug. DEA's 
hazardous waste program, with the assistance of grants from--to 
State and local enforcement supports and funds the cleanup of 
the majority of laboratories seized in the United States.
    In Ohio, from fiscal year 2002 through fiscal year 2004, 
DEA administered 556 lab cleanups at a total cost of 
$1,145,600. For 2005, up to June 30 of this year, the DEA has 
thus far administered 331 cleanups at a cost of $655,200.
    More than any other controlled substance, methamphetamine 
endangers children through the exposure, the drug abuse, 
neglect, physical and sexual abuse, toxic chemicals, hazardous 
waste, fire, and explosions. In response to these tragic 
phenomena, the DEA has enhanced its victim witness program to 
identify, refer, and report these incidents to the proper State 
agencies.
    This program ensures that the endangered children are 
identified, and that each child's immediate safety is addressed 
at the scene through coordination with child welfare and health 
care services.
    The DEA, both nationally and in Ohio, is keenly aware that 
we must continue our fight against methamphetamines and stop 
the spread of this drug. To combat this epidemic, we are 
fighting methamphetamine on multiple fronts.
    Thank you for your recognition of this important issue, and 
the opportunity to testify here today. I will be happy to 
answer any questions you may have, along with ASAC Mirata.
    [The prepared statement of Mr. Oetjen follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.003
    
    [GRAPHIC] [TIFF OMITTED] T5173.004
    
    [GRAPHIC] [TIFF OMITTED] T5173.005
    
    [GRAPHIC] [TIFF OMITTED] T5173.006
    
    [GRAPHIC] [TIFF OMITTED] T5173.007
    
    [GRAPHIC] [TIFF OMITTED] T5173.008
    
    [GRAPHIC] [TIFF OMITTED] T5173.009
    
    Mr. Souder. For our witnesses who may not be familiar, we 
have a 5-minute rule. You have probably all heard that in 
preparation for your testimony. I grew up in a small town 
outside of Fort Wayne, surrounded by Amish, and I always joke 
about we have the longest yellow lights in the United States in 
those communities, so they can slip through the yellow in their 
buggies.
    So I will have a long yellow light here today and give a 
little more flexibility in the testimony. But so we can get to 
questions, and so on, with three Members, if you can follow 
close to the time.
    Mr. Sommer.

                    STATEMENT OF JOHN SOMMER

    Mr. Sommer. Yes. Good morning Chairman Souder and 
distinguished members of this committee. My name is John 
Sommer. I am the Director of the High Intensity Drug 
Trafficking Program for the State of Ohio.
    I first would like to thank you and commend you, the 
committee members, for seeking the facts in this very urgent 
matter.
    The HIDTA program was established in June 1999, originally 
with five counties in the northern part of the State. October 
2004 we established six more authorized counties in the south 
central part of the State. As most of you know, the HIDTA 
program is very unique. It is not just a channel for Federal 
funding, but it promotes a partnership, and it is a partnership 
that I have never seen before, a most unique program in my 35 
years in law enforcement.
    This partnership is needed now more than ever to fight this 
battle in the State of Ohio. The HIDTA program does foster this 
relationship. It shares information. It does threat 
assessments. We have an Analytical Support Center up in 
Brooklyn Heights, OH. We provide strategic, operational, and 
tactical support throughout the State.
    The program, as you know, is threat-driven with regard to 
the training we provide, and also the task forces that we have, 
which are 13 Statewide. As I speak, there are 378 law 
enforcement officers that are part of the HIDTA program in the 
State of Ohio, representing 97 law enforcement agencies 
throughout.
    We have the typical executive board, which has a complete 
balance between Federal, State, and local law enforcement 
officials and executives on this board. Each year, this HIDTA, 
like all the other HIDTAs, does a thorough threat assessment, 
before we take the moneys that are given to us by Congress and 
spend them accordingly. And this is an act of stewardship on 
our part, and we also want to keep track of how the money is 
spent and that it is going to the most urgent areas of this 
battle in drug trafficking.
    Mostly in the State of Ohio, within the innercities, we 
have the biggest problem of cocaine and crack cocaine and 
heroin. However, the growth in methamphetamine has taken a very 
active role, and it is actually growing at an unbelievable rate 
of speed.
    When I came on board in the year 2000, there were 29 labs 
in the State of Ohio, and some of this included dump sites in 
those numbers. And there is 315 counted in 2004. And as of 
August 8 of this year, or rather August 18, there is 206 meth 
labs and meth-related sites found in the State of Ohio. We are 
way ahead of last year.
    We have to remember with regard to the threat assessment, 
the State of Ohio is an agricultural State. There are lots of 
farms. And with those farms, there are a lot of cornfields, and 
we have a lot of available anhydrous ammonia, which is used in 
one of the most popular methods of making methamphetamine.
    Because of that, what we call the ``Mom and Pop labs,'' and 
this was referred to earlier, have been popping up, not only 
stealing this chemical but also using the other precursor 
chemicals such as pseudoephedrine, and ephedrine-based cold 
medicine. So there is a lot of availability here in the State, 
like much of the country.
    These investigations are very different than the other type 
of investigations, and it is unlike sometimes a long-term 
investigation where you have a wire tap and it might take 18 
months to get through. These investigations, when we find a 
lab, it is an emergency. We must respond immediately.
    There might be children exposed to these chemicals. There 
are all types of problems with the dump sites, what goes to the 
economy of this entire country. The whole concept here is much 
different than--and basically it is in a category of its own 
with regard to the trail of destruction.
    Also, there are no forfeitures in this type of 
investigation like you do--like you may find in other types of 
long-term investigations. There are no fancy vehicles and cars 
and homes to take. What you end up with is a pile of rubbish. 
And you have a dump site there.
    It might be rented property, it might be an apartment, it 
might be something that--it might be a park system. The cleanup 
is also extremely expensive and dangerous. Last year alone in 
Summit County there were six police officers who had to be 
hospitalized for inhaling the toxic fumes.
    Bulk transfer of methamphetamine worsening in the State of 
Ohio--and, of course, with that most of it is coming from 
Mexico or the southwestern portions of the State. Ohio is--even 
though it is only--it is 35th in the size geographically in 
this country. It is fourth in the interstate system, highway 
system, and handles a third amount of truck traffic through 
this State. Why? It is because we are a trans-shipment area, 
partly--halfway between Chicago and New York. There is a lot 
coming through here, which makes it readily available or usable 
for bringing in all types of narcotics and dangerous drugs, to 
include methamphetamine.
    There is a model that I want to--I referred to previously, 
and that is what is going on up in Summit County. Summit 
County, the last couple of years, has had a third of the clan 
labs discovered. A recent newspaper article mentioned that they 
were the meth capital of Ohio, with kind of a negative overtone 
to it.
    I would actually say they are the meth response capital of 
Ohio. That is because they have a very aggressive program, a 
good training program, a community awareness program. And also, 
we do support--the HIDTA program does support their task force. 
They have a very aggressive task force.
    Even though they have seen a 210 increase in meth labs over 
the last year, they are doing a great job doing it. There has 
been explosive devices found. There has been booby traps found. 
Again, very dangerous situation.
    There is also some imported meth coming through there. One 
of the largest organizations they took down was handling up to 
200 pounds of crystal meth. Again, dangerous situation, 
automatic weapons, people tweaking out at these sites, and the 
dangers to the children involved and the citizens, unexpectedly 
these things happening in rooms next to them, in hotel rooms, 
motel rooms. It goes on and on.
    Hilton Baker is the Southern County drug task force unit 
chief up there, and he indicated--this was unsolicited, but he 
said with the overwhelming support of the HIDTA program that 
they feel that the Akron/Summit county HIDTA initiative has 
become the most successful and productive initiatives in the 
Nation. And he also indicated that without the HIDTA funding 
they would be doomed, so, obviously, they do not want to go 
back to the 1990's.
    What the HIDTA response has been--and I know I am going on 
longer than I should, but the HIDTA response has been very 
aggressive based on the limited funding we have. This last year 
alone at an average of $2,000 per ounce on the street level, 
the HIDTA initiatives have conservatively taken off $700,000 
worth of raw methamphetamine, and that is in 2004.
    We have had awareness programs, not only speaking to 
community organizations but to realtors, citizens groups, 
prosecutors, children's services. We are trying to push the 
envelope as far as we can on limited funding and what we do as 
a HIDTA. We have also been involved with the media.
    We have had I wouldn't say a media campaign, but we have 
done the best we could to advise the media of the urgencies of 
what is going on. We talked to them freely and openly, so that 
they would spread the word of how dangerous this epidemic is in 
the State of Ohio.
    The HIDTA program is very aggressive on the training front. 
Again, we are threat-driven. We have put training out there 
that we believe the police officers need to be ahead of the 
curve. Since 2001, we have had a lot of training. We have 
trained over 1,000 officers this last year; 202 officers were 
trained specifically with regard to the clandestine lab 
training.
    We have coupled with DCI&I, which is the State law 
enforcement agency that is probably tasked with most of the 
investigations, giving them a 40-hour methamphetamine 
clandestine laboratory certification school. We are doing that 
next month.
    In 2006, we have two workshops, and we have two classes 
scheduled for now. We will increase that, if we can, based on 
budgeting.
    I am wrapping up, and what I want to say is in the State of 
Ohio we have had some legislation, and I have some 
recommendations. In March 2005, legislators in Ohio introduced 
a bill restricting the amount of ephedrine-based cold medicine.
    And, basically, I believe it is not strong enough. I 
personally would like to see a Schedule V, like Oklahoma, be a 
little bit stronger, keep that behind the counter, have some 
accountability on not only the amount of purchases but also 
make it a Schedule V.
    Also, in the State of Ohio, we have had--on April 15, 2005, 
H.B. 536 bill, which makes the theft of anhydrous ammonia a 
third-degree felony, regardless of the value. I think that is a 
really good start. I think that this committee, through their 
leadership and some of the things I have heard, could even take 
some of that information and maybe even push it to the point 
where they would recommend putting chemical additives in the 
anhydrous ammonia, rendering it unusable in the use of 
methamphetamine.
    There is a lot that could be done. Greene County is an 
example, which is just up the way here. Earlier this year, one 
of the clan lab operators was attempting to steal this 
chemical, very dangerous chemical, and the sheriff deputies 
came across him. He pulled a gun. They ordered him to drop the 
gun. They had to kill this individual.
    That is how desperate the people are in stealing the 
anhydrous ammonia, not to mention when they leave the pipe, 
they leave the tube. It is open for the farmer to come up and 
the material is leaking. And, of course, they put them in these 
tanks which are not suitable for transportation. The tanks 
blow. It just goes on and on, the dangers of this epidemic.
    I would just like to stress more than ever, as the Director 
of the HIDTA, and speaking on behalf of the HIDTA and all of 
the law enforcement officers and agents that are involved in 
this wonderful program, and which I appreciate your support on, 
is that for this trail of destruction that we are seeing, to 
get a grip on it, to get a handle on it, we have to continue 
the Federal funding into this, not only to respond to these 
sites but to train, equip, help prevent, bring on more public 
awareness through the program.
    Hopefully, through ONDCP, there will be some more 
commercials, and not marijuana commercials so much but more 
commercials that really hit the public where they need to hear 
it. And also, treatment should not be lost in this battle. We 
have to remember the treatment side of it, although you are 
hearing from the law enforcement side of it today. We need 
treatment, we need prevention, and, of course, the law 
enforcement side of that stool is extremely important.
    I brought with me my Deputy Director, Pete Tobin, who is 
sitting behind me. He is a Deputy Director for the HIDTA in the 
State of Ohio. He has 35 years of State and local law 
enforcement experience. I bring approximately 35 years of 
Federal experience.
    And Mr. Tobin and I have talked about this at length, and 
he, too, obviously recommends what I am recommending. And then, 
the programs that he brings to light are the COPS program that 
we don't want to see any cutting in that. The DEA Superfund--
DEA has been great. They have had to contract out the cleanups, 
but yet they are understaffed. They can't be running around 
responding immediately to all of these sites that we uncover. 
So a lot of this goes to the local law enforcement effort.
    Proposed cuts in the JAG program, obviously, I thank the 
committee, again commend the committee, for restoring this type 
of funding, or attempting to restore it under the current 
administration. And I just want to say that the HIDTA program 
has done a lot, but we could do a lot more.
    And we believe that the funding is the lifeblood, but not 
to be lost in the funding is the cooperation. The multi-agency 
cooperation that we are getting, and we are operating on a 
level playing field, and that is what I would like to continue 
with. And I thank you very much for listening.
    [The prepared statement of Mr. Sommer follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.010
    
    [GRAPHIC] [TIFF OMITTED] T5173.011
    
    [GRAPHIC] [TIFF OMITTED] T5173.012
    
    [GRAPHIC] [TIFF OMITTED] T5173.013
    
    [GRAPHIC] [TIFF OMITTED] T5173.014
    
    [The prepared statement of Mr. Tobin follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.015
    
    [GRAPHIC] [TIFF OMITTED] T5173.016
    
    [GRAPHIC] [TIFF OMITTED] T5173.017
    
    [GRAPHIC] [TIFF OMITTED] T5173.018
    
    [GRAPHIC] [TIFF OMITTED] T5173.019
    
    Mr. Souder. Mr. Oetjen, do you have DEA drug task forces in 
Ohio?
    Mr. Oetjen. Yes. The Cincinnati office itself has 16 
officers, along with 14 agents.
    Mr. Souder. And how far up do they go?
    Mr. Oetjen. We come all the way up here to Clinton County. 
It is actually 13 counties--Clinton, Butler, Hamilton, 
Clermont, Brown, Adams, Ross, Pike, Scioto, Jackson, and 
Lawrence. I think I got them all.
    Mr. Souder. And in the Columbus office you also have DEA 
task forces in Toledo and----
    Mr. Oetjen. There is five additional offices throughout the 
State of Ohio, and they all have task forces, yes, sir.
    Mr. Souder. Where you have the DEA task forces, do those 
overlay with the two main HIDTA zones? In Indiana, for example, 
our HIDTA's, we have the DEA task office in Fort Wayne, HIDTA 
is over in Gary, you kind of--you don't usually find overlap. 
They bump, but wherever they have a DEA task force, that 
Congressman usually wasn't as aggressive in getting a HIDTA. 
Where they had a HIDTA, they haven't necessarily pushed for as 
much of a DEA office.
    But that leads to this patchwork pattern that we are 
getting across the United States. And when you look at a State 
like the State of Ohio, how are you integrating so we can 
figure out, as meth starts to move in from, say, the Akron 
area, and this area starts to pop up, and another area, and 
then as it starts to move in on the cities, how are we 
integrating to look at a distribution plan as meth starts to 
move through a State?
    Mr. Oetjen. In southern Ohio, we have just committed an 
agent to join the HIDTA initiative here in southern Ohio. And 
through the HIDTA intelligence center, the southern Ohio HIDTA 
will interact with the northern part of the State through the 
intelligence center. That is the key point to the component of 
HIDTA is the coordination and communication between all of the 
HIDTA initiatives and the local task forces.
    And so, then, Ohio DEA incorporates mainly outlying 
counties, law enforcement officials, and not necessarily 
Cincinnati or Hamilton County Sheriff's Department. And that 
kind of keeps the finger on the pulse of what is going on in 
rural Ohio.
    Do you agree that in Ohio 70 percent of the meth comes from 
the large organizations and 30 from the Mom and Pop, which is 
kind of the typical pattern? Does that seem to be here?
    Mr. Oetjen. I have been here for 4 years, and I wouldn't 
have thought that until I actually saw it. And, yes, it is 
larger than--we have more meth coming in. In this region, we 
took off a superlab distributor who was importing 
pseudoephedrine from Canada into this area, and then 
distributing it back out to the West Coast to Mexican 
traffickers. It was approximately 3\1/2\ years that we worked 
on this, dismantling separate organizations. That is based on 
this one distribution that----
    Mr. Souder. Was that part of the big operation in Detroit, 
or was it----
    Mr. Oetjen. Yes. It is part of that. It was a nationwide 
SOD campaign. And as we identified this cell here, we were 
incorporated into that major investigation.
    Mr. Souder. In that investigation that came out of Detroit, 
that took down--at one point we thought it was like--something 
like 40 percent of the total quantity of pseudoephedrine in the 
United States. Have you seen any shift in Ohio? Have we, in 
effect, cut some of that Canadian structure so much that it may 
shift? Or what do you anticipate?
    Mr. Oetjen. Since that operation, I haven't seen the 
superlab activity that was here before. And to my recollection, 
I haven't seen any of the superlab meth. I have seen it--sorry, 
but I also cover Kentucky. But it has still been coming through 
the Kentucky route, but not here in southern Ohio.
    Mr. Souder. Before I go to somebody else, let me ask you 
one other question. Part of the reason I keep pushing for a 
national plan and ask this question--in Minneapolis, the U.S. 
Attorney, or the State Narcotics Officer, I can't remember 
which one--when I asked, ``Why hasn't this hit the cities as 
much?'' and they said, ``In the African-American community,'' 
as you stated here, ``that the urban areas are more crack and 
cocaine, that the distribution networks, both Hispanic and 
African-American, are predominately hooked into the traditional 
cocaine market, to some degree heroin market, and often have 
Colombian and Mexican ties.''
    In one neighborhood, they switched over to meth, because 
they, in effect, cut out the Colombians. The Mexican stayed 
within the Mexicans. One black African-American group in one 
section of Minneapolis switched over, and all of a sudden 20 
percent of their addiction in the city was meth.
    Have you seen any signs, or are you watching for signs, of 
how--because these are a lot like trucking companies. They are 
a lot like just here is a Target and here is Wal-Mart. Part of 
the thing here is that if we are not watching these trends as 
to where the patterns are coming from, to the degree we are all 
successful in putting any pressure on Colombia, to the degree 
we are all putting any pressure on the border, which we are not 
in immediate danger of sealing our border.
    But we do--the patterns are likely to change. And are we 
watching those kind of things? And do you have a setup to kind 
of track something like this, because we are seeing it? And do 
you even get information from other parts of the country where 
DEA is seeing this sudden flip-over of some of these 
distribution networks?
    Mr. Oetjen. We absolutely get information from other parts 
of the country and through the SOD center, which is tracking 
the major trafficking routes. Sometimes we are aware that they 
are coming before they get there. Sometimes they are there, and 
we come upon them, and through the interaction with the SOD 
program in Washington they have identified the major routes.
    In my 30 years of narcotic experience, and 22 with DEA, I 
have seen towns like Tuscaloosa, AL, change over in about a 
week's time. The crack epidemic went in and just took over, and 
that is how they do that. They will come in, and there is 
violence and a takeover.
    And it is--you know, using your term, it is almost like a 
corporate takeover. They come and just squash the competition 
and spread this poison. Sometimes they give away the drugs in 
the beginning to get everybody hooked on it and set up the 
distribution points. And then, once it is there, they are 
entrenched, and it is hard to get rid of it.
    Mr. Souder. Thanks. Mr. Cummings.
    Mr. Cummings. I just want to followup on what the chairman 
just asked. I wasn't even going to go down this road, but I 
couldn't help but think about in my district where I have 
actually seen this, seen in the middle of the day you are 
walking down--you are driving, and you see maybe 150 people 
literally lined up in a straight line to get samples of a drug.
    And when you first see it, it just blows your mind. You 
just can't believe this is happening in the middle of the day 
in a busy area. And I was just thinking about what the chairman 
just asked you. I would imagine that--see, I think about meth 
coming into urban areas because it is cheap to produce.
    And so if you have some people looking for a high, and they 
have an opportunity to get something that is cheap, and they 
can come in and do one of those sample things like what I just 
described, and somebody--they may not be used to the meth, but 
they say, ``Well, gee, this is nice.'' The next thing you know, 
I think it does--you have a major problem.
    And so you are saying that you wouldn't--that wouldn't 
surprise you, then?
    Mr. Oetjen. No, it wouldn't.
    Mr. Cummings. What I want to talk about more than anything 
else is this blue line, and our police officers and what 
assistance that you all give them. I know both of you all 
talked about training. Do we--and you, Mr. Sommer, you talked 
about how you had--you wish you had more classes. I forget what 
it was in particular.
    But are we--do we--when these local police--we have heard a 
lot of testimony about how police officers, when they have to 
go clean up this mess, or to be there, you may have a small 
group of--small law enforcement agency, and it basically just 
ties them up. One of my concerns is that when it ties them up, 
then there are other crimes they can't deal with. And the 
criminal mind is they--they are all into this.
    They say, ``OK. If they are tied up with meth, then we can 
go and do our little stuff, the robberies, whatever else, 
because the police are tied up dealing with this.'' And so I am 
just going to try and make sure that when the police come to 
you all for this training, are you able to provide them with 
the training that they are requesting? I mean, do we have a 
waiting list or something like that?
    When it comes to cleanup, you are talking about cleanup, 
are we using Federal funds mostly for these cleanups? Because 
you have a law enforcement officer that has a law enforcement 
agency, I am talking about these small counties, that have a 
small budget. I mean, it sounds to me like if you get three or 
four of these cleanups, you have a major problem with your 
budget, and something has to give.
    So I am just wondering, where are we with training? And 
where are we with cleanup?
    Mr. Oetjen. Well, as far as DEA, we are constantly 
providing clandestine lab training and a train-the-trainer 
concept, where we can train the first responders, the police 
officers in uniform, what they are going to come up on, because 
a few years ago they didn't know. They had no knowledge.
    In southern Ohio, the system is set up that, as far as the 
Federal funding, we provide COPS cleanup money for all the clan 
labs. We have had to tweak that system that--the 24-hour 
number, that when they come up on something, they call us, we 
give them an appropriation number, so to speak, and they have--
and then, the company comes and cleans it up. That is all done 
with Federal dollars, and that is through the COPS program.
    Mr. Cummings. Have you had a sufficient amount of money to 
do that? In other words, I take it that--I mean, have you had 
situations where there was a need for a cleanup and you didn't 
have sufficient dollars to do it? I mean, it may have been the 
end of the fiscal year? I don't know.
    Mr. Oetjen. The money is a pool----
    Mr. Cummings. Right. I understand.
    Mr. Oetjen [continuing]. In Washington. So to this day, 
there has never been an instance where we have asked for money 
and we didn't get money for the cleanup.
    Mr. Cummings. Good.
    Mr. Oetjen. Forgive me, I know we are not in Kentucky, but 
in Kentucky they do a container program, and they have reduced 
the funds all the way down to $300 per lab. And it is done by 
the unique cooperation between DEA, Kentucky State Police, the 
local sheriffs and agencies. If they find a lab, they are 
trained to seize that lab. They take that lab to a depot so to 
speak, and it sits there. So it costs just as much to clean up 
10 labs in one location as it does to go out and do it 10 
times. It is 10 times the cost. So it has reduced a lot of the 
cost of this cleanup.
    Mr. Sommer. I would just say that the local law enforcement 
element is hungry for the training. And when we started this up 
about 3 or 4 years ago with Ohio State Highway Patrol, just to 
tell them and show them what the precursors were, and what you 
might see in the back seat of a car is not what you think it 
is, or what it might be used for--empty boxes of 
pseudoephedrine or tanks that are starting to turn blue, ready 
to blow the tops on it, and glassware. So it has really, really 
helped us.
    We could probably do training almost every week at least in 
this area. And there are different levels of training. There is 
the actual certification course, which when they come out they 
have their moon suits, and these are the people that are going 
to be doing the cleanups. And then there are some other basic 
courses, which are just basically the awareness courses and 
what to look for.
    How this has changed in the last 2 or 3 years is that it is 
something that they have to respond to. And a lot of times, 
even if they are not assigned to do the cleanup, they still 
have to respond to it, they have to guard the sites. There is 
overtime costs that are involved that these small police 
departments may not have. This is where the HIDTAs do come in 
to help pay for that.
    What it is, it is just an urgency matter. It is an 
emergency cleanup matter is what it is, so that has to go along 
and be done in tandem with the actual investigation. It is just 
a different type of beast is what I have seen in my years. I 
don't know if that answers your question.
    Mr. Cummings. Yes. I am just wondering, it sounds like you 
were saying that you think there should be some national 
standard.
    Mr. Sommer. Yes, I do.
    Mr. Cummings. OK.
    Mr. Sommer. I really do, and I----
    Mr. Cummings. You have heard arguments on the other side of 
that, right?
    Mr. Sommer. Not all of them, obviously.
    Mr. Cummings. Well, the main ones. Well, when we talk about 
like some of these products are easy to get over the counter--
--
    Mr. Sommer. Right.
    Mr. Cummings [continuing]. You have the Retailer 
Association coming in, and they talk about how it is going to 
kill their business, I mean it will hurt them. Some retailers 
are being--I think Chairman Souder in his opening statement 
said you might be in a position to where Target and Wal-Mart 
might be able to sell these things, but then a lot of your 
other businesses would have--it would be onerous.
    And, you know, it is--and I think he and I, before we heard 
the testimony, we were pretty--we hadn't really considered all 
of that. But the testimony was quite--I mean, it left you 
saying, ``Well, you know, you have a point here.''
    The problem is, though, when we look at methamphetamine and 
the damage that is done by these drugs, sometimes you have to 
use urgent and--urgent solutions and solutions that might be a 
burden to some of you in society to get to the problem, to deal 
with it, when you see the damage and you see what is happening 
to our children and you see all of the social services being 
tied up, and what have you.
    And so I think we--I think what we need to try to do is 
find some kind of balance whereby--and I don't know what that 
balance is. I think we have been trying to struggle with that a 
bit, where you do make sure that certain products, people have 
to go through--if they are intent on using those products 
illegally, have some kind of barrier to them getting them, but 
at the same time have the free flow of commerce. and where that 
balance is we are still trying to figure out.
    Mr. Sommer. I think, too, that the--instead of each State 
doing their own thing----
    Mr. Cummings. Yes.
    Mr. Sommer [continuing]. I think you need uniformity, 
because if one State is very strict, like Oklahoma, and 80 
percent of the labs are--Mom and Pop labs are--have diminished 
over the last year. Of course, they are going to get imported 
stuff.
    But if one State is doing it, and the other State is not, 
then the State that is not doing it, then the stuff will be 
shipped over, or they will go over and they use the smurfing 
technique, obviously, because a lot of these meth operators, 
they are almost set up like co-ops. You get the chemicals, you 
get this kind, you get this kind. So I think that we need 
uniformity and leadership on that end of it. And it is an 
emergency, and I think this is a tremendous wakeup call for 
this country.
    And if some manufacturers are inconvenienced, my opinion as 
a law enforcement guy, so what? It is saving people's lives, 
and this kind of----
    Mr. Souder. We had a very interesting debate between Kansas 
and Oklahoma when Oklahoma had just put in their law, because 
Kansas actually reduced the Mom and Pop shops more than 
Oklahoma with the Meth Watch program than Oklahoma did with the 
Pharmacy program. What it takes is a concerted effort of the 
local people to pay attention, and the law enforcement to work 
at it. And we need some kind of combination of these type of 
things.
    But we are getting kind of a uniform, in my opinion, 
simplistic answer for law enforcement right now that it is just 
the pseudoephedrine control when other communities have done 
other things. It has to be part of it, whether it is blister 
packs, wholesale, over the counter, and hard.
    But as I pointed out informally, this stuff is going to go 
to the Internet. And everybody in law enforcement knows it is 
tougher when it hits the Internet than when you are selling it 
at a local grocery store, because we can find them when they 
are coming in as a physical person. We can find them when they 
use cell phones. The tough problem here is, as we are finding 
with the Colombians and the Mexicans and everywhere else, is 
that when this stuff goes underground, it is gone.
    And we have to make sure that in the short term, trying to 
get a quick fix, we aren't actually creating a bigger potential 
problem, and not to mention the fact that Dayton doesn't have a 
problem. How much do you restrict, because of the rural areas 
around it, the city of Dayton? It is a political problem.
    I mean, I have been as aggressive as anybody in the Nation 
on this, and we brought the Oklahoma program in to help 
publicize it. But we have to, when we are looking at narcotics, 
get a step ahead and think a step ahead, not just what is the 
immediate fix, of which this may be the immediate fix.
    By the way, now that so many States have moved, it is not 
clear we can get a national standard anymore, because usurping 
State law, because we would--the national law proposed is 
weaker than many of the State laws. I can imagine very many 
Congressman from a home State are going to want to say, ``We 
want to do a weaker law.''
    In Indiana, we have, after a big battle, passed a law. And 
if I now, all of a sudden, decide to jump on the bandwagon and 
do one and unseat the State law, we now have another political 
problem, because this has kind of gone in this tidal wave 
through the States. But it clearly has to be addressed, and we 
have to get at the pseudoephedrine. The question is: what is 
the best way to get the pseudoephredine?
    And it was a very interesting point just a minute ago that 
Mr. Oetjen made when he said that, in effect, he hasn't, by 
the--much of our midwest was coming through Canada, and that we 
took down the big group, and the question is: who is going to 
replace it? Or did we actually, if, in fact, the superlab stuff 
isn't coming through as much, what is going to be the net 
replacement from that?
    And if we replace Canada with Mexico, you know, I don't 
know that I want to make that trade. That it is a really 
difficult process to work through here. We are all doing the 
best we can, but it is a huge challenge that we are trying to 
work out as it moves east and moves urban.
    Mr. Cummings. Just one last question. You know, one of the 
things that--our being here today focuses on the problem here. 
And I am just wondering, I mean, perhaps it would be good for 
the local law enforcement officers to talk about this, too. I 
think our greatest weapon in most crimes, our greatest agent to 
fight crime, are citizens.
    I mean, I have practiced law for 20 years, 25. When you 
don't have citizen input, you can forget law enforcement. And I 
am just trying to figure out, I mean, what--you have these 
cameras here, and I am just wondering, you know, what would you 
say that citizens can do to help to fight this? What is going 
on here with methamphetamines, because it is in every nook and 
cranny? It is everywhere.
    I mean, so--and they are everywhere. And you have a lot of 
people--I think our citizens--and Mr. Turner can tell us better 
about that. I think they are aware of how bad the problem is 
and they see the effects. And a lot of people say, ``Well, 
there is nothing I can do about it.'' I am just wondering, what 
would you have them do?
    Mr. Sommer. I think it is an awareness problem, and it is 
also--I mean, whether you establish a national hotline, 
whatever you do, you need more watch groups. But to start with, 
to educate them on--there is really--there are some people that 
aren't even aware of what to look for. They don't have the 
indicators.
    Mr. Cummings. I see the officer shaking his head behind 
you.
    Mr. Sommer. But it is true. We need to get a campaign 
going, a national campaign. And whether you set up hotlines or 
whatever you do, I know in Hawaii they did--when they had the 
crystal meth, they took the whole weekend out and had a bunch 
of people call in. And I think it was on every station out 
there for a while, and they blitzed the public.
    Something needs to be done, but I agree with that--we are 
only as good as our intelligence in the community, and it is 
the backbone of law enforcement.
    Mr. Cummings. So you don't think our Media Campaign--you 
think our Media Campaign has to have meth in there.
    Mr. Sommer. Oh, yes.
    Mr. Cummings. Big time.
    Mr. Sommer. Oh, yes. Absolutely. It is here. It is here, 
and we can't ignore it. It is here. What I am concerned about, 
I am digressing a little bit, or going off, is one of the 
biggest things happening are the gangs in the cities. And Mr. 
Oetjen picked up on it with the city, the problems with the 
cities, and I mentioned with the crack and the heroin.
    When the gangs pick up on it, it is going to run really 
fast and furious, I believe, because it is a product. They are 
all into selling the drugs. And it is just a matter of the gang 
activity picking up on it, even though most of it is coming in 
from the rural area.
    Mr. Oetjen. Congressman, just to go one step further, you 
are absolutely right. It has to be a total package or it is not 
going to work at all. We have in the past, and just recently 
here in Ohio, had methamphetamine summits. We talk about 
treatment and prevention, and try to embrace the total 
cooperation. But as you well know, along comes violence with 
that, and a lot of people are afraid to step forward.
    We encourage it, and we wish there was more. But, you know, 
it is hard to sell that to a citizen who is afraid, afraid of 
their life, so----
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Thank you, ranking 
member, for your thoughtful approach to this issue. I 
appreciate not just the expertise that you bring, but the 
thoughtful discussion of, what do we need to do to address 
this? And, Ranking Member Cummings, I think that your last 
discussion, the focus on the issue of what do we need to do 
with the general public, is an important one when we talk about 
issues of controls, and we talk about the issues of the recipe, 
if you will, of making meth.
    I know we all note that the front cover of Newsweek most 
recently talked about the meth epidemic. And one of the things 
that strikes me in this is that, as we look at the meth 
epidemic, there appears to be clear evidence that the use of 
meth results in the destruction of lives, that this may be one 
of the most addictive drugs that we have faced in our 
communities, and that anyone who makes a choice to use this 
drug is making a choice that could be permanent to their life, 
both the changes in the structure of the brain, the addiction 
level that they have, and the destructive forces.
    Now, as we look to law enforcement, we look to trying to 
find those who are selling it, find those who are making it, 
you have a tremendous wealth of information that the public 
needs to learn about the effects of this drug. And I wonder to 
what extent that we are harnessing the information that you 
have about the impacts on people's lives who have used this 
drug, so that we can communicate to people on the demand side 
that this is a dangerous drug, that this will destroy their 
lives, that they need to stay away from meth, that they need to 
report individuals who are trafficking in meth.
    To what extent are we, or how could we do a better job, by 
making certain that the information you have of the destructive 
forces of meth can get into the hands of our children and the 
people who are making the decisions to avoid this drug?
    Mr. Oetjen. Well, again, historically the Town Hall 
meetings sponsored by the city fathers and police departments 
that I have participated in seem to have worked very well and 
opened the eyes of the common citizen out there who has no idea 
what methamphetamine is or the dangers behind it. Awareness is 
the key.
    I mean, and we participate in these events routinely, 
probably not enough, but we have a demand reduction coordinator 
for two States. And they are constantly going around, speaking 
to schools and high schools and public events, to make them 
aware of these, not just methamphetamine but everything.
    Mr. Sommer. Basically, my take on it is to bring it to 
their attention and use it, not only through the community 
outreach programs, but also to cities, making sure that the 
workers in the cities know what to look for, look for the dump 
sites. The people that are out there daily working with--just 
picking up the roads, the road hazards, and this sort of thing.
    And also, but I think the attention that you are--this 
committee is putting on it, and the pressure they are putting 
on this, is very admirable, because, just like the article you 
have there in your hands, it has the media's attention now. 
What we have to do is continue the pressure, keep using the 
media to put the message out there, follow it up with some kind 
of a national campaign.
    I think probably the most effective thing for this hearing 
today, if we brought in a family, a family that has been nearly 
destroyed through the use and abuse of meth, and to have the 
public see them and see what it has done to them and how it has 
destroyed their family, their kids, animals, I mean everything 
in the family. This is the kind of thing that we need is the 
public to see that path of destruction.
    I spoke with a very hardened detective the other day, and I 
said something about, ``We are going to talk about some things. 
You know, what do you think about treatment?'' He just snapped 
back, ``There is no treatment. There is no treatment for this 
drug abuse. It is so severe.''
    And I am sure that is not quite that extreme. There has to 
be some type of treatment. But based on what he has seen, he 
has never seen--he has always seen relapses, or other people 
could get hooked into it, and I think the public needs to know 
it is a sentence of death once they start it.
    It is just not a casual drug, and it is not a recreational 
drug. It is an absolute--might as well put a gun to your head 
and kill yourself. I think they need a very strong message, and 
it needs to be put out there.
    Mr. Turner. I think one of the most effective things that 
we saw in the Newsweek articles, and in the other articles that 
have occurred, are the pictures of the faces of meth when they 
talk about the impacts of the decline that you see in 
individuals who have begun to use this drug. I think that is 
absolutely correct.
    If we can get that story out, if we can get the words out 
as to the impacts of this drug, that this is a permanent 
decision, that this is not a recreational decision, that can 
have a real impact. So I encourage both of you, as you look to 
the information that you have and the need to get that 
information out to the public, that you do that, because you 
will know more than we ever will, and you will have direct 
evidence that people know what is going to happen to their 
lives.
    Mr. Sommer, you also said one thing that I was not aware 
of, and that was anhydrous ammonia--you talked about it as a 
way to make it so that it is unusable in this process, 
rendering it unusable for this. Could you describe that a 
little bit more?
    Mr. Sommer. The only thing I know is that there is some 
research being conducted right now--I want to say it is in 
Iowa, I am not sure, a college. But what they have done--there 
were two thoughts of that. No. 1, they were going to try to put 
something in it, so when it was being stolen it would act like 
a tracer, similar to like a bank robbery drive back or 
something.
    And then, the other thought was, well, let us make it so 
that it cannot be used, you know, in the making of meth. And to 
me that is the wiser thing is to just make it so it cannot be 
used. But they are doing some experimentation on it right now 
with the manufacturers to make it still usable as a fertilizer. 
It is primarily used for corn. And I think that would help. I 
think if they could push that a little bit more, and push that 
along to the manufacturers, and I could get more information 
for you on that, but I think that is an idea.
    Now, there is actually a case, though, where there are some 
chemists--there are some chemists out there that actually have 
the capability of coming up with that chemical themselves. 
Anhydrous ammonia is extremely rare, but for the most part it 
is stolen and used. And if not used directly, it is sold to 
those who are the operators of the meth labs.
    Mr. Turner. Thanks for your hard work that you are doing to 
combat this, and your bringing information forward that we 
might be able to implement. I appreciate also your discussion 
of the national standards issues, because it does look as if we 
don't have a margin of error here, since this is a life 
destructing drug.
    As we look to the chemicals that make this recipe, I think 
the discussion of both the chairman and the ranking member on 
ways to restrict its availability are very important.
    Thank you, Mr. Chairman.
    Mr. Souder. Thanks. Nick Coleman has been our internal 
specialist on meth, and I was just asking him, because this 
comes up in my district all the time, about the anhydrous 
ammonia. And what we need as we look at a meth package is to 
figure out what things we can do with the precursor chemicals 
in the brief point there, which is that we have been funding 
this for a long time, and we hear different things about red 
dye, and we are going to do this kind of stuff.
    And, quite frankly, none of it works because it appears 
that every time they think they have a breakthrough, what it 
does is it reduces the value of the anhydrous ammonia. 
Furthermore, if we do solve the anhydrous ammonia, they may 
switch to iodine or other types of things that could be equally 
as effective.
    So we are trying to figure out how we can do this in some 
of our fall legislation, and we are going to plunge in.
    I have a couple of followup questions yet. One is, on the 
Kentucky program, the $300 containment, we are going to be down 
in Chairman Rogers' district within the--certainly within 60 
days, maybe within 30, to look at some of this. He raised this 
to me, I believe. Do you know, is that in his district, and, in 
Kentucky, Harold Rogers?
    Mr. Oetjen. Yes, sir. It is in 10 Kentucky State Police 
posts throughout the State. Some of them are in his district.
    Mr. Souder. And can you provide, so we have the record and 
can start to look at it, what that exactly is? Because that 
would be a huge breakthrough, and I don't understand why it is 
not spread wider, if you can do a $300 containment on this.
    Mr. Oetjen. A summary of the program?
    Mr. Souder. Yes.
    Mr. Oetjen. Yes.
    Mr. Souder. With some of the details, and we can maybe ask 
some questions. But if you can get a draft of that to the 
committee.
    Mr. Oetjen. Sure.
    Mr. Souder [continuing]. Then we will follow-up and get 
that from Kentucky State Police before we get down there, 
because that is something we ought to be looking at in the 
fall, because one of the biggest problems we are going to hear 
is how we have to wait to get a cleanup lab, and the cost that 
a local county can't do, and if there is a way to address that.
    You also made a reference in your statement about club 
drugs and seeing it show up in rave.
    Mr. Oetjen. Methamphetamine show up at raves, yes.
    Mr. Souder. In Ohio, in your district, or is that just----
    Mr. Oetjen. I can't give you a specific instance, but this 
is what I was told.
    Mr. Souder. OK. If you can find anything more particular 
about that, we have been watching Ecstasy closely. If this 
turns into a club drug, we have a whole other problem.
    Mr. Oetjen. OK.
    Mr. Souder. And, Mr. Sommer, on the HIDTA funding question, 
you were authorized, because you expanded for HIDTA for an 
additional $644,000 in funding, did you actually receive any of 
that?
    Mr. Sommer. Not yet. And what they did was when they 
authorized those counties, I was told that it was going to be 
base funding, they would level fund us up to that amount. We 
have not received it, and they put it into a package of 
discretional funding, which we are supposed to be getting at 
the end of the month.
    Those counties are still left high and dry for this year. 
We have not been given the money for 2005, and we are waiting 
for that.
    Mr. Souder. So they added it to the HIDTA, so you have more 
territory but the same amount of money.
    Mr. Sommer. Right now, we have more territory, the same 
amount of money. The ONDCP did promise the funding would be 
coming. Again, it is very difficult doing this, and you know 
the restrictions on ONDCP. We are supposed to spend the money--
--
    Mr. Souder. They never have enough.
    Mr. Sommer [continuing]. Only in the counties, you know, 
that have been authorized, but you have Clermont County right 
down the road that is about third highest in the----
    Mr. Souder. And why wasn't that authorized, then?
    Mr. Sommer. They are not authorizing. You have Astabula 
County next to Cuyahoga that is about second highest. But we 
still try to do the best we can with what we have.
    Mr. Souder. So let me ask this question. Since we have seen 
the figures in meth have been doubling in Ohio, did that play a 
factor in adding the counties to it?
    Mr. Sommer. Definitely. What they did was----
    Mr. Souder. But if that is the case, why didn't the second 
and third largest get added?
    Mr. Sommer. The way those counties were added, the history 
on it was they were originally going to make that a separate 
HIDTA, so they began doing their own threat assessment, the 
U.S. District--or U.S. Attorneys Office, Southern District. And 
they came up with their threats that didn't include the meth at 
that time.
    Mr. Souder. So the answer to the question is they expanded 
the HIDTA, but not because of the meth problem.
    Mr. Sommer. That is right.
    Mr. Souder. Because your second and third biggest counties 
weren't included.
    Mr. Sommer. That is correct.
    Mr. Souder. So that meth wasn't considered the drug threat 
in Ohio.
    Mr. Sommer. That is correct.
    Mr. Souder. If we polled the counties in Ohio, do you think 
they would consider meth--we heard this county thing that said 
that meth was the highest threat in the Nation. In Ohio, we 
find a similar thing, and how does that interrelate to where 
our DEA task forces are and our HIDTA?
    Mr. Sommer. I think the meth situation has been growing so 
rapidly that another fresh look at the State of Ohio, in my 
opinion I would include those counties.
    Mr. Souder. Very wise and careful choice of words. 
[Laughter.]
    Let me ask one other thing. It seems to me that one of the 
problems--we have been trying to figure out how--we have been 
down to EPIC multiple times, met with risk and all the 
different alphabet soup. I mean, we have seven different 
intelligence centers just in El Paso, collecting data. And it 
is clear the data is incredibly inaccurate.
    Mr. Sommer. Exactly.
    Mr. Souder. And that there just isn't any other way to say 
it, and DEA is trying to get on top of it, and EPIC, but every 
hearing we do, the lab takedown totals from the local police do 
not match. In other words, in Arkansas, for example, they had 
taken down more labs in one county than they were reporting for 
the State.
    But what I learned is that the figures--that Arkansas was 
no more off than any other State, so there is some kind of--I 
don't know whether they are just not reporting.
    The other thing is that drug court data in the urban area 
seems--they are having to deal with them right there, they have 
the cases, and it is almost like a lead indicator. My question 
is: do you have or use drug court data? And we don't have 
national drug court data, but I am wondering if the HIDTAs and 
the DEA task forces look at the drug courts as well in 
accumulating what your highest risk things are?
    Because the drug court guy is having to deal with the cases 
right in front of him, he is trying to decide whether they are 
going to be incarcerated or released. He is trying to decide 
what treatment program to put them in. So they have to do a 
poly drug analysis of which is the driving drug.
    And what we are finding out is that the meth is the driving 
drug in much of this, that if you can't control the meth you 
can't control the individual. But that data isn't even coming 
into the law enforcement system, from what I can tell.
    Mr. Sommer. I would just like to mention that in our threat 
assessments, we use the ADAM reports, and I know they are under 
threat of loss of funding, and we do use all the data we can 
get to put the threat together, to answer that one question.
    The other question I would like to just bring up for--or 
you brought up was on the clan lab, the national clan lab 
system. You are 100 percent correct. The figures are very 
difficult. We are trying to work on that. The HIDTA, on the 
national level, pushed that system, tried to put it together. 
But what is happening is this--the 143 Form, the DEA form that 
they came up with, it is a voluntary form, a lot of local law 
enforcement officers will not submit it, or they submit it 
late.
    And then, the other problem with reporting--the State of 
Ohio has another reporting system where they may be reporting 
dump sites or just glassware, and not an actual active clan 
lab, you know, with bombs going off and everything, chemicals 
and this kind of thing. So there--we need to get our hands 
around that, and we are working on it.
    I know that the directors, the HIDTA directors, and at our 
meetings we brought that up about how to make sure we have more 
accurate reporting. Perhaps maybe we need a requirement in the 
local and State law enforcement agencies that require them to 
submit the form, maybe some type of--even a penalty if they 
don't. But there is really no followup.
    Mr. Cummings. Just one more question. Mr. Sommer, you said 
some very kind things about the HIDTA program, and I was just 
wondering, do you all communicate much with those folks, those 
HIDTAs in the west, and the Los Angeles HIDTA? I mean, I know 
the HIDTA in the region--I mean, your HIDTA, all of you all are 
working together, but is there a lot of discussion with regard 
to these kinds of problems from those other areas affected?
    Mr. Sommer. Yes. We do have connectivity with all 28 HIDTAs 
throughout the country. And, of course, in California, when 
they were talking about 1,400 labs a few years ago, us out east 
were like, OK, you know, it hasn't hit here yet, but we knew it 
was probably going to be coming.
    But we do communicate. We have a strategy that we worked on 
together, and we also support this national methamphetamine 
chemicals initiative that we have been doing. And what I would 
like to see actually is more of a national strategy put 
together, and where all HIDTAs, regardless of the amount of 
labs you are seeing, that we could put something together to--
not only on the awareness side of it, but also on the training 
side of it, because to get ahead of the curve, quite frankly, 
these labs--I don't see any end in them growing and heading 
east.
    So, but to answer your question, we do communicate 
regularly. We do have these summits. We do have meetings. And 
we share any ideas and best practices with each other, and 
particularly those that have been through it, before we have 
gotten to this point, this crisis, that we would learn through 
them.
    Mr. Cummings. Thank you.
    Mr. Souder. Thank you. We are going to take a brief recess. 
If the second panel could come forward.
    [Recess.]
    Mr. Souder. The subcommittee is back in session, or 
whatever the correct term is. Raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. Thank you for your patience. 
Thank you for all of your years of work in this area, and we 
will look forward to hearing your testimony. We will start with 
Sheriff Vore.

   STATEMENTS OF DAVE VORE, MONTGOMERY COUNTY SHERIFF; RALPH 
 FIZER, JR., CLINTON COUNTY SHERIFF; TOM ARISS, WARREN COUNTY 
SHERIFF; COMMANDER JOHN BURKE, GREATER WARREN COUNTY DRUG TASK 
   FORCE; JIM GRANDEY, ESQ., HIGHLAND COUNTY PROSECUTOR; AND 
     COMMISSIONER RANDY RILEY, CLINTON COUNTY ADMINISTRATOR

                     STATEMENT OF DAVE VORE

    Mr. Vore. Thank you. I would like to begin today by 
offering my sincerest gratitude to the Congress of the United 
States, Committee on Government Reform, and the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources for holding 
this most important investigative hearing here at Wilmington 
College.
    Before becoming Montgomery County Sheriff in 2000, I served 
as the Commander for the combined agencies' Narcotics 
Enforcement Drug Task Force. This is a multi-jurisdictional 
task force that targeted upper-level narcotics traffickers. 
During my time as Commander in the mid-1990's, we rarely 
encountered the illegal drug methamphetamine.
    This problem was relegated in Missouri, Kansas, and other 
States west of the Mississippi River. Not anymore. Meth is 
marching--no, running--eastward and enveloping the whole 
Nation. Very few issues repeat the criminal cycle and resulting 
societal damage as this illegal drug activity does.
    While we in law enforcement and society are familiar with 
marijuana, cocaine, oxycontin, we are not as familiar with 
methamphetamine. This highly addictive stimulant, which is 
relatively cheap to manufacture, ensnarls the grip of addiction 
like a vice. According to a recent Federal estimate, more than 
12 million Americans have tried methamphetamine.
    Law enforcement officers across the Nation have ranked meth 
as public enemy No. 1. This drug has affected the whole 
criminal justice system in a way unseen since the crack cocaine 
epidemic of the 1980's. Not even during the crack epidemic of 
the 1980's were normal law-abiding citizens affected as they 
are today, as a result of the assault of meth.
    Giant retailers such as Wal-Mart, Rite Aid, and others have 
removed non-prescription cold pills from unsecured product 
shelves. These products contain the active ingredient 
pseudoephedrine. Meth manufacturers or cookers extract this 
pseudo and then combine it with other chemicals like iodine and 
anhydrous ammonia.
    During the spring of 2004, the Miami County Sheriff's 
Office had seen a noticeable increase in the theft of the 
chemical, anhydrous ammonia. This chemical is illegally used as 
a fertilizer. Miami County is primarily a rural agricultural 
area. In the spring of 2004, my office assisted the Miami 
County Sheriff's Office with an officer-involved shooting 
incident.
    One evening a deputy was investigating a suspicious 
individual around an anhydrous ammonia tanker left near a farm 
field, which is normal in rural areas. The suspect had just 
opened a valve on the tanker, attempting to siphon off 
anhydrous ammonia, when something went wrong, sending a cloud 
of ammonia into the night air.
    Two deputy sheriffs confronted the individual, ordering him 
to the ground. Instead of following the deputy's order to get 
on the ground, the suspect reached into his waistband and 
pulled out a handgun. The suspect pointed his weapon at the 
sheriff's deputies. In defense of their lives, they fired their 
weapons, fatally wounding the suspect.
    Further investigation revealed the deceased was heavily 
involved in the use and manufacture of methamphetamine. This 
was a tragic result of his horrible addiction.
    According to the latest DEA drug task force info in 2004, 
approximately 20 methamphetamine labs were shut down in 
Montgomery County as a result of law enforcement efforts. In 
2005 thus far, law enforcement has busted or cleaned up at 
least 30 methamphetamine operations in Montgomery County.
    One main problem for law enforcement trying to combat the 
manufacture of methamphetamine is the ability for its 
manufacturers to cook the product in any location. Although 
rural areas are preferred venues because of the pungent smell 
the cooking process emits, cookers have increasingly used 
vehicles as a point of manufacture. This creates a logistic 
nightmare for law enforcement officers when vehicles are 
discovered either to be engaging or previously engaged in the 
manufacture of meth.
    Toxic waste left by the manufacture of this drug is 
immense. For every 1 pound of meth, 5 pounds of toxic waste is 
left behind. In Montgomery County, during the last 6 months, my 
narcotics enforcement unit has encountered three meth labs 
operating out of vehicles.
    The city of Riverside just last month, located in 
Montgomery County, busted a meth lab operating in a garage in a 
residential area, which required the response of the Ohio 
Attorney General, Jim Petro's, Bureau of Criminal Investigation 
Clandestine Drug Lab Unit. This unit conducted the cleanup 
operation in this particular case.
    Because the materials used to manufacture meth are 
extremely dangerous, the response of trained personnel capable 
of handling self-contained breathing apparatuses, air tank, 
portable decontamination units, air purifying respirators, and 
other protective gear, are necessary and needed to be the 
standard operating equipment of all law enforcement personnel 
across the State of Ohio and the whole United States.
    If meth abuse reaches the levels seen by crack in the 
1980's, our already overcrowded jail population will explode. 
Montgomery County and surrounding counties have recently built 
new jails or added new cells to handle the increased inmate 
populations resulting from already increased drug offenders. 
That is why we must stop meth in its track.
    Therefore, I ask the Federal Government to assist us in our 
effort on the front line in this war against meth, with its 
subsequent assault on our society by, No. 1, providing funding 
for law enforcement agencies to purchase specialized equipment, 
such as self-contained breathing apparatuses, portable 
decontamination units, air purifying respirators, to enable us 
to clean up labs when discovered; two, provide treatment for 
methamphetamine abusers and support systems for their children; 
three, keep funds available for HIDTA areas to combat the 
illegal drug traffickers.
    Again, I would like to thank all members of this committee 
for allowing me to address these concerns in our effort to 
combat the increasing tide of methamphetamine use in our 
community.
    Thank you.
    [The prepared statement of Mr. Vore follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.020
    
    [GRAPHIC] [TIFF OMITTED] T5173.021
    
    Mr. Souder. Thank you very much.
    Sheriff Fizer.

                 STATEMENT OF RALPH FIZER, JR.

    Mr. Fizer. Thank you, Chairman Souder. I would like to take 
this opportunity to thank you for the invitation to testify 
before you today. I consider it an honor and a privilege to be 
able to speak to you, and I want you to know we appreciate the 
fact that the Federal Government is willing to take the time to 
listen to our concerns on the local level.
    Just to give you an idea, from August 2003 through this 
August 2005, we have had approximately 32 partial or working 
methamphetamine labs seized here in Clinton County. We are a 
very rural community, a lot of farm land. All of these seizures 
resulted in felony arrests of approximately 50 different 
individuals.
    There have been approximately 50 abandoned methamphetamine 
labs found in our fields or ditch lines throughout the county. 
There are currently approximately 30 more labs that we know of 
working right now today in Clinton County.
    The number of meth cooks grows rapidly. It is relatively 
simple to make, and the ingredients are easily attainable. 
Along with these meth labs, we have had approximately 70 to 80 
reports a year for the past 2 years of anhydrous ammonia 
thefts. Again, as you saw when you came to our county today, we 
have a lot of farmland. The anhydrous tanks are usually parked 
at the edge of the fields and around barns.
    Just so far this year, in 2005, Clinton County has had 88 
drug cases. Of those 88, approximately half of them are due to 
meth. Due to the meth use in Clinton County, we have also seen 
increases in home burglaries and thefts. Just a week ago, I 
myself responded with my deputies. A lady is frantic. Someone 
is beating in her back door, attempting to break into her 
house.
    We got there. Sure enough, the guy had made it into her 
house. Of course, he was arrested immediately. But his 
actions--we were pretty sure he was on some type of drugs. He 
was taken to a local hospital and, yes, he was on 
methamphetamine, in a small, local village here in our county.
    All of these cases where the burglars were on meth, the 
suspects were caught and taken to the local hospitals. The drug 
cases in this county have impacted our corrections facility. We 
built a new jail 4\1/2\ years ago here in Clinton County. I am 
overcrowded. It is busting at the seams, and it is mainly 
because of the methamphetamines here in Clinton County.
    I have a very aggressive detective division. There isn't a 
week to 2 weeks goes by that we don't bust some type of a meth 
lab or drug dealers here in Clinton County. We are doing 
everything possible we can to get them off the streets.
    The increase in the drug cases also affected our manpower, 
as it takes many hours to work these cases, along with the 
paperwork load, but it also affects our courts, our 
prosecutor's office, probation and parole offices.
    As a result of the increased felony case load in the court 
system, we are already looking at, along with our County 
Commissioners, possibly having an additional Common Pleas Court 
Judge. It is getting that bad.
    As the sheriff, my office is taking the initiative to warn 
and educate our local firefighters, township trustees, our 
local citizens, as to the dangers of meth. Methamphetamines--
the dangers of meth have been added to our DARE program, which 
is very big here in Clinton County.
    There are also citizens groups here in Clinton County, the 
Coalition for a Drug-Free Clinton County. They are trying to 
educate, along with our sheriff's office, educate the public 
and the kids to the dangers of meth.
    Our biggest problems we have, though, are the cleanups. In 
Clinton County, we have one officer trained in going in and 
cleaning it up. We have had two or three detectives on waiting 
lists trying to get in to get them trained. There is not enough 
training.
    DEA does an excellent job of assisting us in coming in and 
cleaning up the labs. However, they either have to come out of 
Columbus or into Annapolis. Again, it is taking 5 to 6 hours 
that we have to maintain these scenes, waiting for a cleanup 
crew. It is very expensive to my sheriff's office, especially 
when we are in a small rural community. Luckily, I have good 
County Commissioners that do try to assist us any way they can.
    So what we are asking on the Federal level is any 
assistance at all for additional training on the cleanup, 
anything DEA can do to give us more cleanup crews, so we are 
not tied up for hours and hours. I think the reason we have 
busted so many labs, too, is because of the awareness in 
Clinton County. We are a small community. The community calls 
my office constantly.
    We have a Web page that they are constantly e-mailing us, 
they think there is a meth lab here or there. Because of their 
help, the citizens have actually joined in to help the 
sheriff's office. And we are busting them right and left, but 
we need additional training and additional equipment.
    Thank you very much for the opportunity today.
    [The prepared statement of Mr. Fizer follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.022
    
    [GRAPHIC] [TIFF OMITTED] T5173.023
    
    Mr. Souder. For the hearing record, because these meth 
hearings are going to be kind of the main hearings that will be 
the official record of the United States on meth, and for 
reading them it would be helpful--and let me go back to the 
first two, and then each of you kind of, to the degree you are 
not from the same county--Sheriff Vore, if you could say--how 
big is Montgomery County?
    Mr. Vore. As far as population?
    Mr. Souder. Population.
    Mr. Vore. About 565,000.
    Mr. Souder. And how many narcotics officers do you have in 
your office?
    Mr. Vore. In my office, six.
    Mr. Souder. And, Sheriff Fizer, how big is----
    Mr. Fizer. We are approximately 43,000.
    Mr. Souder. And how many narcotics officers do you have?
    Mr. Fizer. I have four detectives, one that works full-time 
narcotics, and that is it.
    Mr. Souder. OK. Thank you.
    Sheriff Ariss.

                     STATEMENT OF TOM ARISS

    Mr. Ariss. Thank you, gentlemen. Chairman Souder, members 
of the committee, I appreciate the opportunity to speak to you 
today.
    I am Tom Ariss. I am the Sheriff of Warren County, OH, and 
Warren County is located in the southwestern part of the State 
of Ohio. It is the second fastest-growing county in Ohio. The 
population has grown from a 2000 Census of 152,000 to the 
present estimated population of almost 200,000. So rapid 
growth.
    I myself have been in law enforcement since 1957. I retired 
from the U.S. Highway Patrol, and I have served as sheriff for 
13 years. I was in the Army as a military police officer, and I 
also worked with the Springbrook Police Department and the 
county court system as a bailiff and probation officer.
    Over these years, I have been involved in numerous drug 
types of cases. My most memorable event was a drug arrest 
involving a young man, local young man about age 20. I had 
arrested him for DWI and a failure to stop violation. In a 
subsequent search of this gentleman's vehicle, I found four 
large grocery sacks full of marijuana, over 200 hits of PCP and 
LSD. He was arrested for these drug violations.
    What keeps this case in mind--this is about a 30-year-old 
case--is that the gentlemen was--his age, and also prior to his 
case being heard in our local Common Pleas Court, this 
gentleman was killed up in Greene County, an adjacent county up 
the road here.
    And the reason he was killed--the information I got--was 
that he failed to pay for his drugs that I was fortunate enough 
to remove from the street and from him. It has been on my mind 
for many years.
    Warren County has a very active and, I might add, a very 
proactive and progressive drug task force program. It has been 
in effect for approximately 8 years. The success of this 
program is through the efforts of our county prosecutor, local 
Warren County police departments, our township police agencies, 
the Ohio Bureau of Identification and Investigations, the FBI, 
and also the members of our Warren County Sheriff's Office.
    The local townships, cities, and villages over the years 
are contributing to funding of our new drug task force. And the 
good thing about our Warren County Commissions--match dollar 
for dollar to keep this drug task force in operation. And 
without this funding, we would not be able to exist. Also, we 
have moneys from the Federal Byrne Grant to assist in this 
program.
    Additional funding resources could be enhanced if the 
Federal forfeiture funds could be allocated for the salaries of 
drug task force members. And my understanding is that Attorney 
General Gonzales can expand or permit the usage of these 
forfeiture funds.
    We presently work with the Ohio HIDTA group, which is based 
in Cleveland--you heard from Mr. Sommer earlier. We now have a 
HIDTA group for the southwestern Ohio area, which encompasses 
from Columbia to Dayton to Cincinnati, a huge triangle of many 
counties and very large populations. I presently chair the 
southwestern Ohio HIDTA group.
    Warren County has seen a large growth in the production of 
methamphetamine over the past years. And last year, 2004, our 
drug task force investigated eight meth lab cases. So far this 
year, 2005, the task force has been involved in 15 meth lab 
cases. As these numbers grow, we will more than likely triple 
the numbers from 2004.
    We, the local law enforcement agencies, have been involved 
in numerous types of meth labs, from the mobile to the hotel to 
the home to the garage and to the shed. Our most recent meth 
lab production operation involved locating the remnants of a 
lab in a local farmer's pond.
    The site work and cleanup are dangerous and very expensive. 
There are numerous recorded incidents in our county and all 
throughout the country involving meth labs where there have 
been explosions and injuries and where labs have even been 
booby-trapped. Gentlemen, we have been very, very lucky.
    Folks, quite frankly, the influx of the manufacturing and 
also the use of meth frightens me, unlike any of the other 
challenges that I have faced throughout my law enforcement 
career. If we think of those non-involved individuals who are 
victims of this scourge, and how it affects their lives and 
living conditions, it is very frightening. Remember the farmer 
whose pond is now contaminated with these dangerous chemical 
residues. The same applies to the motel and hotel proprietors.
    The costs associated with the cleanups of these sites is 
tremendous. The property is contaminated. There is definitely a 
true loss of the property values. I shudder to think when the 
innocent family rents the motel room next to the potential meth 
lab next door. The potential victims do not even know that they 
are sleeping next door to what is effectively a bomb.
    As citizens of this great Nation, we are acutely aware of 
threats of international terrorists. But I submit to you all 
that this epidemic is more of an immediate threat than the 
terrorist.
    Every one of us is a potential victim. This scourge crosses 
all lines of the social-economic strata. The poor, the rich, 
the doctor, the lawyer, the factory worker on his way to work, 
and the day laborer on her way back to home, could all be in 
danger. These drugs do not discriminate by religion or skin 
color. The drugs ruin our lives, and they can and do often 
kill.
    If everyone is not safe, then none of us are safe. As law 
enforcement executives, we owe our citizens nothing less than 
our full attention to this growing problem.
    Gentlemen, thank you very, very much.
    [The prepared statement of Mr. Ariss follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.024
    
    [GRAPHIC] [TIFF OMITTED] T5173.025
    
    Mr. Souder. Thank you.
    Commander Burke.

                    STATEMENT OF JOHN BURKE

    Mr. Burke. Thank you very much, Chairman Souder, and the 
committee. I appreciate, as the others have said, this 
opportunity for us to be here. I am in charge of the Warren 
County Drug Task Force, obviously in Warren County, OH. We also 
currently cover the city of Wilmington.
    We have an eight-person meth lab team that is in a 26-foot 
trailer that we were able to purchase through some forfeiture 
funds and a generous donation from the Procter & Gamble Co. So 
I do have eight people trained. One is actually a chemist with 
the Miami Valley Crime Lab, which is kind of unusual.
    But before I discuss the five things that I have listed, I 
wanted to just give you a little background about the first 
meth lab that we encountered, which was in July 2000. We were 
woefully prepared for this. We had purchased a small amount of 
methamphetamine, raided an almost abandoned farmhouse at the 
end of a 1,000-foot gravel driveway. And only by the grace of 
God did this first endeavor turn out to be successful, since we 
had no training or protective gear to minimize harm to all of 
us who drove down the long lane to the house.
    In that residence, we found over 50 automatic weapons, most 
ready to fire at a moment's notice, detonation cord, and a host 
of toxic chemicals, meth waste, and a small amount of 
methamphetamine. During the investigation, we became aware of 
child endangerment and abuse, domestic violence--two issues 
that are often present, as you well know by now, at these 
clandestine laboratories.
    On the first lab, we arrested four people and removed two 
children from their parents' custody by notifying our 
children's services department in Warren County. Although these 
adults were long-time methamphetamine users and showed signs of 
anorexia, little or no personal hygiene, paranoia, and drug-
induced stupor, that seems commonplace with methamphetamine 
abuse.
    In almost 38 years of law enforcement, which included 32 
years with the Cincinnati Police Department before coming to 
Warren County, I believe that methamphetamine is the most 
addictive drug on the planet. When abusers are willing to drink 
their own urine and smoke their own puss out of self-induced 
scratches in order to obtain the drug, it has a lethal 
attraction like no other substance of abuse I have encountered 
in my career.
    In talking about the five things in this few minutes that 
we have, I wanted to get to--I wanted to let you know, too, Mr. 
Chairman, that I was born in Fort Wayne, IN. My family is from 
Berne in the Decatur area, and I----
    Mr. Souder. I thought your statement seemed extraordinarily 
intelligent. [Laughter.]
    Mr. Burke. I always say that I travel in Maryland quite a 
bit, too, as I--[laughter]--five separate things. The one thing 
that I think the sheriff touched on are the Byrne Memorial JAG 
Grants. These are grants that come from the Federal Government, 
as you know, and there has been a considerable reduction in 
this funding for local drug task forces to be potentially 
devastating in fighting the drug war.
    Ohio Drug Task Force grant moneys have been cut in half in 
most instances for 2006, with a much greater cut in a few more. 
Currently, there is no funding slated for drug task forces for 
calendar year 2007. This change will effectively cripple many 
drug task forces in 2006, and will likely eliminate others in 
2007, if funding is not restored to its 2005 level.
    The clandestine methamphetamine problem and the increased 
abuse of crystal meth will put an even greater strain on the 
drug task forces in Ohio. I strongly urge that these grants 
under Byrne Memorial be restored to their past levels to ensure 
a continued pursuit of high-level drug traffickers.
    The Federal forfeiture revisions, which the sheriff also 
touched on, in these times of reduced revenue for governmental 
entities, the consideration of the expanded use of Federal 
forfeitures is very important. Currently, the Federal moneys 
can be used for a variety of things to combat the drug war, but 
salaries for people longer than--new employees for a year that 
cannot be used.
    This puts many drug task forces in the position of having 
substantial Federal forfeiture moneys accrued from 
participating and joint Federal-local drug investigations, but 
being unable to maintain their current personnel strength due 
to lack of enough State and local funding. This could put drug 
task forces in the position of having state-of-the-art 
equipment to address the drug problems, but not the funding to 
provide an investigator for its operation.
    My understanding is that U.S. Attorney General Gonzales can 
expand this use of Federal forfeiture funds to that of salaries 
of drug task force personnel that have been there longer than a 
year. This change may very well also be the difference between 
drug task forces surviving at their full strength or not at 
all.
    Since this change does apparently not require legislation, 
I would hope that it could be considered as one of the most 
expedient ways of allowing new funding for drug task forces, 
and this change would not require more taxes or governmental 
funding, only a small change in the current policies.
    Ohio HIDTA and, of course, Director Sommer was here--our 
region has recently been part of that program. HIDTA provides 
an enormous ability for us to cooperate with Federal and State 
law enforcement agencies. They have excellent training 
opportunities, investigative resources, a deconfliction program 
nationwide that foremost protects law enforcement officers 
while safeguarding major crimes.
    I feel that full funding of this program is crucial if we 
are going to continue to combat the drug problem in the United 
States. The influx of crystal meth just adds another drug 
requiring total law enforcement cooperation involving 
international substance of abuse.
    Clandestine lab cleanup, which is already in place--and we 
have not seen any indication that we didn't have that funding 
when we needed it. My people are site safety trained, so we get 
a number of these safety cleanup people that come right to our 
site. And we have not seen any dry-up of that money, but I just 
want to stress how important that money is for the future.
    The last thing I have, which is kind of specialized, 
because we do have a clan lab team, is the clan lab entry. The 
problem with entering meth labs when you have to--and we try 
not to while they are cooking, but it is not always that easy--
is the fact that you have one or two thoughts of going in.
    And one is you go in without protective gear, so that you 
have the full availability of being able to use your firearm if 
you have to. Of course, the problem with that is if you 
encounter toxic chemicals, then the officers become endangered 
without any masks or any other breathing apparatus.
    The second way is to go in with the full suits on, which we 
have, and then you restrict your amount of movement and the 
fact that you can use your firearm if you have to.
    What DEA does provide is specialized training that we would 
just like to see more of. It is excellent training, and it 
provides sending an entire team probably to Quantico, or they 
may come to Ohio where they would train as a unit, so that when 
we make these entries we are making them as safe as possible 
for the police officers.
    In conclusion, law enforcement continues to try and address 
the issues surrounding clandestine methamphetamine production 
in our jurisdictions. The efforts on clandestine meth require 
extensive training and equipment for law enforcement and good 
intelligence on those who are producing this addictive 
substance.
    Continuing education efforts are also vital and are the key 
to identifying those responsible. Continue with current cleanup 
programs to clandestine meth, along with forced entry training, 
would be welcome. The introduction of crystal meth has already 
started in Ohio, and will likely continue to grow, especially 
as new legislation will likely take place concerning the sale 
of pseudoephedrine products.
    Crystal meth is likely to be more potent, with bigger 
profit margins and more overdose deaths. Crystal meth will need 
to be combated in much the same way as we combat currently 
cocaine and marijuana, which also has a Mexican nexus.
    We about a year and a half ago seized 11 pounds off of a 
person in a small township in our county. Crystal meth was 
worth well over half a million dollars just here in Warren 
County.
    Now more than ever, while Homeland Security needs make for 
strained drug enforcement budgeting, increased funding is 
needed for drug task forces. Money for personnel, overtime, 
equipment, and good training is paramount, the need to restore 
grant moneys to 2005 levels and relax the Federal forfeiture 
policies to allow us to pay for salaries of drug task force 
agents that may need to be laid off if relief is not 
forthcoming.
    In addition, the best way I see to promote Federal-local 
drug law enforcement cooperating, producing excellent cases, is 
to continue the funding to ONDCP for the HIDTAs. HIDTA can be 
the glue that keeps the Federal-local entities together, 
working toward a common goal of reducing the influx of these 
substances in the United States, while arresting and 
prosecuting those responsible for its distribution.
    Thank you very much.
    [The prepared statement of Mr. Burke follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.026
    
    [GRAPHIC] [TIFF OMITTED] T5173.027
    
    [GRAPHIC] [TIFF OMITTED] T5173.028
    
    [GRAPHIC] [TIFF OMITTED] T5173.029
    
    [GRAPHIC] [TIFF OMITTED] T5173.030
    
    Mr. Souder. Thank you.
    Mr. Grandey.

                    STATEMENT OF JIM GRANDEY

    Mr. Grandey. Thank you, Mr. Chairman, and members of the 
committee. I appreciate the invitation to come here today.
    And just as an aside, Congressman Cummings, I had a 
brother-in-law who did most of the architectural work for the 
revitalization of downtown Baltimore. And so I am familiar with 
your district as well.
    Mr. Cummings. Yes. We have representatives from just about 
all of downtown. Yes. Wonderful.
    Mr. Grandey. As I indicated, my name is Jim Grandey. I am 
the Highland County prosecutor. My office is located in 
Hillsboro, OH. Highland County has approximately 44,000 
residents.
    I took office on January 1, 2001. Since that time, we have 
presented 193 methamphetamine-related cases to the Highland 
County Grand Jury, 27 in 2001, 45 in 2002, 54 in 2003, 52 in 
2004, and 15 this year-to-date in 2005. At that same time, my 
total felony case load has increased from 129 cases in 2000 to 
315 cases in 2004, and 203 so far in 2005.
    We have had two deaths which were directly related to the 
manufacture of methamphetamine in my county. As has been stated 
here before, methamphetamine is beyond a doubt the most 
addictive drug that I have seen. Many times the defendant is 
arrested for manufacturing and/or possession, he bonds out of 
jail, and upon being served with the indictment is found to be 
manufacturing or possessing or using again.
    We have had at least two defendants who were incarcerated 
in the State penitentiary, one for 2 years, one for 3 years. 
And shortly--I mean, shortly--after their release from the 
State penitentiary, they were indicted again for manufacturing. 
That is something you don't see in your other crimes.
    Normally, if you would have somebody who commits a robbery, 
they will lay low for a while while you are prosecuting them. 
You may get them later later on, but with methamphetamine it is 
constant, and it is something that I know the other counties 
share as well.
    In response to this phenomenon, Judge Hoskins of the 
Highland County Court of Common Pleas amended his bond schedule 
to increase the bond amounts for anyone who is indicted on a 
methamphetamine-related charge. This has kept the offenders in 
jail rather than out manufacturing, but it has created other 
problems.
    One, it has increased the amount of inmates in our new 
county jail, which is overcrowded, and causing budgetary 
concerns for the county. Also, it shortens the try-by time in 
which my office must bring an accused to trial. Shortening the 
try-by time puts added pressure upon my office and upon the 
court to resolve the cases, along with the other cases which 
are pending.
    In a county that only has one general division judge, and a 
felony prosecuting staff consisting of myself and one 
assistant, the increase in the case load and the shortening of 
the time to process the cases has put an extreme pressure on 
the criminal justice system.
    In addition, very few, if any, of the defendants can afford 
to hire their own attorney. Thus, the cost of court-appointed 
counsel has increased in the county as well. In 2000, Highland 
County paid $175,752.78 for court-appointed counsel. In 2004, 
the county spent $314,582.12, and has paid $206,633.05 as of 
August 15, 2005.
    This increase has been complicated because the 
reimbursement from the State has been reduced from 50 percent 
to 28 percent, and we are told it is going to be reduced down 
to 25 percent.
    Some people may ask why there are so many cases in Highland 
County. First of all, we are rural. Second, there is an ample 
supply of chemicals necessary for production, especially 
anhydrous ammonia. And, in addition, the recipe for 
manufacturing methamphetamine is readily available on the 
Internet, and, believe it or not, in the local library.
    What can be done to help smaller counties in their fight 
against methamphetamine? We need financial assistance to offset 
the increased costs of providing court-appointed counsel and 
housing those charged with methamphetamine-related crimes. It 
is my belief that the cost of court-appointed counsel should be 
paid from the State or Federal funds rather than from a local 
level.
    From a non-monetary perspective, it is my belief that 
increased penalties with longer mandatory sentences would help. 
In addition, mandatory fines need to be made mandatory and not 
able to be relieved because a defendant claims to be indigent. 
He or she may be indigent today but may not be later on and 
should be required to pay all mandatory fines.
    In addition, increasing the try-by times for 
methamphetamine-related crimes would be a help. With the 3 to 1 
ratio that we have now, those defendants who are in jail need 
to be brought to trial within 90 days. Increasing that just to 
120 days would be a help to my office.
    There has been talk this morning about taking Sudafed and 
other products, putting them behind the counter. I am not 
opposed to that. However, as you have heard before, that does 
not prevent the manufacturers from obtaining these products. It 
may be an inconvenience for them, but they will still get it.
    What it does do, though, is you and I as consumers, it puts 
an added burden upon us. We have had some pharmacies who 
restrict the amount of packages you can buy. My secretary buys 
three different kinds for her family, and the pharmacy she goes 
to won't sell her three. So she has to go back. I applaud their 
efforts, but I am not sure that is going to keep the 
manufacturers from getting the products.
    Any help that this committee and the Federal Government can 
do to help us not only with the financials, but also in the 
enforcement that we have heard about this morning, would be 
greatly appreciated. And I know every small county here in Ohio 
is more than willing to work with you to try to seek a solution 
to this problem. I know it has put an extreme burden upon my 
office.
    Thank you.
    [The prepared statement of Mr. Grandey follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.031
    
    [GRAPHIC] [TIFF OMITTED] T5173.032
    
    Mr. Souder. Thank you.
    Commissioner Riley.

                    STATEMENT OF RANDY RILEY

    Mr. Riley. Mr. Chairman, members of the committee, as 
County Commissioner, I am delighted to be here today 
representing Clinton County, a traditional rural county which 
is currently going through the leading edge of what is 
anticipated to be a very significant growth period.
    The city of Wilmington, the county seat of Clinton County, 
has been designated as a micropolitan area with a population of 
over 12,000 people. The remainder of the county is compromised 
of seven incorporated villages, ranging in size from just a few 
hundred residents to well over 4,000. There are 13 townships in 
Clinton County. The total population of the county is just over 
40,000 people. Almost half of the county residents live in the 
townships outside of the incorporated areas.
    Clinton County, because of its location and transportation 
infrastructure, is a rapidly growing area. Several industries 
and businesses have recently moved here. We anticipate 
significant growth in the next few years. With the anticipation 
of population growth also comes an anticipated growth in crime.
    Methamphetamine use in Clinton County has already reached 
the crisis level. Law enforcement officials throughout the 
county are spending a considerable portion of their time 
dealing with the consequences of the ever-growing 
methamphetamine problem.
    But the problems surrounding the increased use of 
methamphetamine in this rural community go far beyond law 
enforcement. Lives that could be active and productive are 
being lost to this insidious drug. Children whose parents are 
caught up in the methamphetamine trap are abused, neglected, 
and are being raised in an extremely dangerous environment.
    Meth is called ``poor man's cocaine'' for a good reason. 
The ingredients are available locally, and it is not difficult 
or expensive to make.
    When discussing the most highly addictive, life destroying 
drugs, most people generally think of heroin and cocaine. Now, 
we must add methamphetamine to that short list. But there is a 
big difference.
    Heroin is not grown in North America. The poppy fields of 
southeast Asia are half a world away. Efforts to halt the 
growth and distribution of heroin are ongoing, but those 
efforts are taking place far from Clinton County.
    Cocaine crops from South American countries certainly find 
their way to the United States, but the growth and initial 
production of cocaine takes place a continent away. Efforts to 
halt the growth and distribution of cocaine are ongoing, but 
those efforts are taking place far from Clinton County.
    However, with methamphetamine, we have an entirely 
different, more complex, and much more devastating problem. We 
know that most of the large, bulk production of methamphetamine 
takes place in Mexico and the southwestern portions of the 
United States. The drug is then shipped and distributed to 
addicts around the country.
    Bulk production is certainly a problem. But in this area it 
is the small ``Mom and Pop'' cookers who are wrecking havoc 
with the lives of our citizens.
    Unlike heroin and cocaine, which comes from distant 
countries, everything you need to make methamphetamine is 
available right here in Clinton County. Gentlemen, within a 
half a mile of where we sit, I could find everything I would 
need to start a lab, make enough meth to get high, and have 
enough meth left over so I could sell it to make enough money 
to start making another batch.
    You can even go to the Internet, select a search engine, 
type in ``How to Make Meth,'' and you will find on the Web site 
a method, a prescription, a recipe that very clearly describes 
two different methods of methamphetamine production. There is 
even a frequently asked question section for cookers who might 
be having problems.
    I have spoken to law enforcement officials and pharmacists 
about this situation. One solution keeps coming up. We have to 
make it more difficult to get the ingredients. Ephedrine and 
pseudoephedrine must be more difficult to obtain. There needs 
to be a tracking system to find out who is buying ephedrine and 
pseudoephedrine, when it is being bought, where they are buying 
it, and where these folks live.
    When it is discovered that one or two people who live with 
or near each other are all buying ephedrine and 
pseudoephedrine, we must be able to take legal action. And, 
very importantly, we must be able to protect the children who 
live in these highly dangerous environments.
    Methods must also be explored to see if ways can be found 
to track the other highly toxic ingredients which are also 
readily available in our community.
    In conclusion, gentlemen, methamphetamine, besides 
destroying the lives of users, is also destroying the lives of 
innocent children and has become a major law enforcement 
problem and societal problem right here in Clinton County. We 
welcome any help you can give us in dealing with this problem.
    Thank you.
    [The prepared statement of Mr. Riley follows:]

    [GRAPHIC] [TIFF OMITTED] T5173.033
    
    [GRAPHIC] [TIFF OMITTED] T5173.034
    
    Mr. Souder. Thank you. I am going to do something a little 
unusual. I would like--is David Priest still here? Could you 
come forward and get one of those chairs. We are going to swear 
you in.
    [Witness sworn.]
    Mr. Souder. Let the record show that he responded in the 
affirmative. Priest is P-R-I-E-S-T.
    My understanding is that you have been a meth addict and 
are recovering. Could you just tell us a little bit of your 
story?
    Court Reporter. Excuse me, Mr. Chairman. Could you please 
move the mic closer to him? Thank you.
    Mr. Souder. Will that work? OK. She does the court record. 
So when we do the record, hopefully we have an accurate 
representation. Getting a word turned around here or there can 
be very critical when you are dealing with this kind of issue. 
Thank you.
    Let me know if you can hear.
    I am going to have--Nick is our legal counsel for the 
committee. I need to have him describe, for your own 
protection, what you need to say and not say.
    Mr. Coleman. I am not your attorney, but I can tell you, 
obviously, you are testifying under oath. You do not have to 
testify as to any illegal activities that you may have 
participated in for your own legal protection. Obviously, that 
is your choice to make, but I just want to make sure that you 
are aware that you don't have to testify specifically about any 
illegal activities that you yourself participated in.
    Just so you are aware of that. Your choice.
    Mr. Turner. Mr. Chairman, if I could just add, Mr. Priest, 
from what I understand, you have very compelling testimony for 
us on the personal impacts and effects. And I just wanted to 
make certain that you were aware that being under oath any 
testimony that you would provide--that you would not be 
required to provide about manufacture or sale of meth.
    Since it would be testimony that you would be giving under 
oath, it would have criminal implications for you. But we don't 
want that to inhibit your ability to tell what is an incredibly 
important personal story, but did want you to be aware of that.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you. I am not an attorney, but it sure 
sounded scary to me. [Laughter.]
    Thank you for being willing to talk to us.
    Mr. Priest. Meth was very attractive to me, because at the 
time I liked to speed and try it, and it lasted so long. It is 
like a 3-day type of thing, so it would be like a speed buzz 
for 3 days. That attracted me to it.
    But then, instantly the group of people that were doing 
that, I saw them starting to lose their minds, and I wanted to 
get away from it. And it was almost impossible. It was like the 
only way to get away from it was to cut them off, get them away 
from it, because they were--they cooked. They were making it 
themselves.
    And I don't think we are getting as much imported here as--
I mean, that is not the root of the problem, in this small 
community anyway. I think most of it is manufactured around 
here. I have wanted to quit almost from the time that I did it, 
and the easiest--the only way to do that was to discontinue 
going around those people at all.
    Mr. Souder. How is it different than other--anything else 
you have ever taken on yourself? And why was it harder?
    Mr. Priest. Harder to quit? You just--it is part of the 
addiction thing. You justify it a hundred ways, and it was so 
much easier to justify. It was part of----
    Mr. Souder. Did you think about it all the time? Did it 
impact your ability to work or your family?
    Mr. Priest. Yes. I thought I needed it to make it, to get 
up the next day, you know, to get moving. Yes, and I destroyed 
my entire--everything. It tends to make you want to tweak, like 
try to make things better than they were. And what you end up 
doing is destroying what you have, and, you know, I pretty much 
had to dig a hole. I was at the bottom.
    I couldn't get anywhere, and finally that is when I--
actually, I left the State for about 3 weeks or so just to get 
those guys to realize it. Don't even want them to come visit me 
anymore, because it was like I wanted to quit, and it just kept 
finding me. And I am sure that is an excuse, that is justifying 
it, whatever. That is just how it went.
    And the rehab programs, I tried those. That didn't work. I 
don't know that those programs could really help someone that 
was addicted to it.
    Mr. Souder. Do you think it is hard to find here?
    Mr. Priest. No, it is so easy to find here, because 
everybody is cooking it. It is hard to find someone that don't 
have some association.
    Mr. Souder. Do people teach each other how to cook it, or 
how do----
    Mr. Priest. Yes, that is what happens. A guy sees he is 
about ready to get caught, because, I mean, of course they 
always think you are about to get caught. But, so then he shows 
somebody else, so one guy gets taken down, and then two more 
come up.
    But I have noticed just from today--that is kind of why I 
came here, I wanted to see how things were going. They are 
doing a lot better. It is not as bad as what it was 2 years ago 
when I quit.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. OK. Do you have children?
    Mr. Priest. I just had one 11 months ago.
    Mr. Cummings. And this is--I mean, when you were using it, 
did it make you feel like--I mean, like you didn't care about 
keeping a job and things of that nature? And I take it that you 
feel like you have already beaten the habit, is that right? Do 
you believe you have?
    Mr. Priest. As long as I stay away from--I don't want to 
ever go around anybody that does it again. I mean, I have beat 
it, yes. I know what it does. I know where I will end up if I 
go back. And, yes, I feel like I have beat it, but you can 
never say, ``Well, I have beat it good enough to do it one 
time'' either, you know? I have been through multiple rehabs. I 
do know how all that stuff works. And one time, you know, it 
would turn into again, the same thing.
    So I can't say I have it beat. I don't think anybody could 
ever beat an addiction.
    Mr. Cummings. I know you are not here for this purpose, but 
you hear--have you heard any of the testimony of these 
officers?
    Mr. Priest. Yes.
    Mr. Cummings. Oh, good. Good. You know, I mean, and I know 
you are concerned about other people being involved in this, 
and these officers have talked about how, you know, even their 
lives and their men and the women that serve--their lives are 
on the line. And I will tell you, on my way here last night 
when I was driving through this rural area, you know, I thought 
about years ago how in Baltimore crack cocaine had gotten--and 
cocaine had gotten to be such a problem.
    And then, the next thing you know time goes on, and the 
next thing you have are generations. The grandfather is in 
jail, the father is in jail, and now the son is in jail. And I 
saw some of that. And so, I mean, how do you think--I mean, 
knowing what you know, is there a good way to try to help 
people not get addicted, No. 1, and try to stop these folks 
from--it sounds like you have--you are talking about a whole 
string.
    You know, you said one person is cooking, he thinks that 
these guys are right on his trail, so he calls up his buddies 
and says, ``Well, look, you know, I want three of you all to 
come over, because I am just about to go down so the three of 
you all, you do it,'' and the next thing you know it just 
doesn't stop.
    I mean, how do they address this? And how would we address 
it as a neighborhood, do you think, so that you don't get to 
that point where, like I described in Baltimore, we have 
generations, and that child has a baby less than 1 year old? 
You know, so your child doesn't end up where--doesn't have to 
go through what you went through. Do you follow me?
    Mr. Priest. Yes. That is kind of why I am here, to see----
    Mr. Cummings. But I know you don't want to----
    Mr. Priest. Yes, I wanted to see--that is why I am here. I 
wanted to see how you guys were working toward getting it that 
way. I think--I mean, of course, everybody thinks this--that 
Sudafed is--pseudoephedrine, whatever it is, that is the 
biggest problem with it. I mean, it is the people doing it, 
really. But if that was gone, it would be so much harder, and 
it would all be imported, and it would be a whole--it would be 
down with the cocaine. Cocaine has always got to be brought in.
    And with the methamphetamines, I can see it coming as 
people getting killed by--like I heard somebody's testimony 
there, how many guns were in there that were ready to be fired 
at that time. And I have seen it on the news also. People have 
come out shooting from--about to get their--I think that 
happened in Highland County maybe 3 or 4 years ago.
    It is going to progressively get worse, I mean, and it is 
getting worse already. And this is already in these people's 
minds, and it is just like it is going to happen sooner or 
later, and it already has several times. Being in a small town 
I guess is just----
    Mr. Souder. In looking at the so-called home-cookers, which 
are different than the crystal meth, and often totally 
different people, and looking at the pseudoephedrine question 
at pharmacies, which we have been kind of going around about 
today, would the people you know--do any of them use the 
Internet?
    Mr. Priest. Use what?
    Mr. Souder. The Internet.
    Mr. Priest. Yes. Actually, a lot of them learned it from 
there.
    Mr. Souder. If they learned it from the Internet, and we 
restricted that to pharmacy, why wouldn't they just order the 
pseudoephedrine on the Internet?
    Mr. Priest. I just--actually, I just learned that today. I 
didn't know that was even possible. That kind of ruined that 
whole----
    Mr. Souder. Do you have any friends up in Fort Wayne, which 
is farther north--we have whole bus groups that go across to 
Canada to bring pharmacies in, and the laws wouldn't restrict 
bringing Sudafed, where obviously whole groups of people go 
back and forth all day. And in the southwest United States, you 
see at each border crossing rows of pharmacies and people going 
back and forth all day within the limitations of what they can 
bring back in drugs.
    Do you believe the people are desperate enough in your 
area, who you know, that they would find that?
    Mr. Priest. I don't think they have the resources. They 
have dug theirselves holes. They are at the bottom of it, and 
they can't afford to get there to get it that way, actually. 
There is a lot of that, but there is also the bigger--like you 
were talking about, the glass or the ice or whatever, that is 
imported.
    Mr. Souder. It is a fascinating sub-question, because I 
believe for much of the market they would adjust. But it may be 
that, like you say, that the home-cookers are a unique subgroup 
that we actually could control through a different program 
targeted at the local pharmacy distribution, because if they 
are disconnected and not into the normal networks, and don't 
have resources--of the people that you have known, without 
getting names or implicating anything, would you say that in 
their patterns, do they worry at all about their kids?
    Mr. Priest. Their kids? No. Actually, they are sitting 
there worrying about the law.
    Mr. Souder. When we do a cleanup of a site, one of the 
things that we don't do, we get all the chemicals out, but the 
house is still dangerous. Is there any kind of discussion, or 
have you ever heard anybody discuss like, ``Hey, what is this 
stuff going to do to the people around me?'' or that kind 
stuff?
    Mr. Priest. They just don't care. They have a one-track 
mind, and that is, is the law watching me?
    Mr. Souder. Do most of the people have jobs?
    Mr. Priest. No. Actually, they lose their jobs within--I 
think maybe people might make it 6 months with a job. But once 
you get in one of those groups, I mean, they are actually 
cooking it right there, and it is just--you just don't--you 
lose your whole----
    Mr. Souder. Do they drive a car?
    Mr. Priest. If they can get one.
    Mr. Souder. Do they drive it when they are high? I mean, 
can you--at what point does it become you are just----
    Mr. Priest. With me, it was a problem. I couldn't do that. 
I actually got dizzy on it. But----
    Mr. Souder. So would you still try to drive or----
    Mr. Priest. I wouldn't, no.
    Mr. Souder [continuing]. People coming down the road?
    Mr. Priest. I know other people would, yes. I have seen 
several people drive in and drive out, and they have driven out 
after 3 days of----
    Mr. Souder. One of our challenges is we have drunk driving 
laws, but we don't have very good drug-induced driving 
penalties, because if you are driving in that condition you are 
endangering everybody else on the road around you. Do you know 
anybody who has had fires?
    Mr. Priest. Yes, several places----
    Mr. Souder. Or blowups.
    Mr. Priest [continuing]. Has burnt. Yes.
    Mr. Souder. Does that tend to sober them up at all about 
it, or does it----
    Mr. Priest. No. I don't know how to knock sense into them, 
really, to be honest with you.
    Mr. Souder. Were any of the people that you know related to 
biker gangs? Is that a----
    Mr. Priest. Actually, you know, one of them from Missouri 
actually, he came down and that is pretty much what brought a 
whole group that is still out there, still free. They are out 
of Missouri, but they don't have the money to be able to go get 
the drug, the ephedrine, anywhere else, or Sudafed, whatever 
you call it.
    They don't have the capability of going to get that 
somewhere else. They have Wal-Mart, wherever--you know, like 
gas stations has a----
    Mr. Souder. Because they are broke because they have lost 
their jobs already, basically.
    Mr. Priest. Yes.
    Mr. Souder. They don't have many assets.
    Mr. Priest. All they can do is sell what they are making.
    Mr. Souder. Is it like crack in the sense of every city 
that has had crack will move to abandoned houses or different 
places if they--do they get desperate enough that they will 
look for----
    Mr. Priest. I haven't seen that in the small towns. 
Actually, yes, in the rural areas, it is more like a camper out 
behind the house.
    Mr. Cummings. Mr. Chairman, I am going to have to leave, 
unfortunately, to catch a plane, but I just want to, first of 
all, I want to thank you for what you are doing. I want to 
thank all of you all for your testimony. And I really do--I 
mean, you have sat here and you all have said--you thanked us, 
but we thank you. We really do, because, you know, when I go 
to, sadly, to the funerals of police officers, it becomes so 
clear to me what you all go through in law enforcement. You 
don't know whether you are going to come home.
    And then, when we get testimony like what you just said, 
you know, you can find yourself in a situation where you are 
harmed, and the person who harmed you, you know, they are not 
even in their right mind at that moment.
    And we are committed, along with Representative Turner, to 
do everything in our power to assist you. And the testimony has 
been very helpful. Believe it or not, I have heard a lot of 
testimony, but I have learned some things here that I had not 
heard before.
    And we are all working together to try to make a 
difference, and so I just want to, again, thank you, and I want 
to thank you, too.
    But I want to leave you with a message, and it is really 
simple. That we can solve our neighborhoods' problems by all of 
us working together, and that is why your testimony is so 
important. These officers, they are just trying to keep people 
like you, your wife, and your neighbor safe. That is what--they 
eat it, they sleep it, that is all they--I mean, that is on 
their minds all the time. That is what they do.
    And so by you trying to help us in any way that you can, we 
really, really do appreciate it. And so, thank you all very 
much.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you. Mr. Turner, do you have--I have some 
law enforcement questions. I will yield to you next to see if 
you have questions first, and then I will do some final.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank each 
of you for everything that you do every day in your 
communities, for law enforcement, for making certain that you 
have safe communities.
    And, Mr. Priest, I appreciate your bringing forth the 
message that you had today of getting the message out that this 
drug destroys lives. So thank you for what you have shared.
    I want to ask you, our panel members, what can we do better 
in the area of communication? Because one of the things that 
just strikes me, and what I am hearing from you, not just the 
epidemic and the numbers which are extraordinary, but that this 
is different than anything we have dealt with before.
    Commissioner, when you talked about how this is made and 
the access, you know, that certainly is an important issue, its 
readily available nature. The dangerousness of this drug, the 
fact that this drug will absolutely ruin lives, is a message 
that I don't know that it is getting out. And what do you think 
that we can all do together to make that more clear, so that 
when people know that they are facing this drug that they are 
facing a decision that really is a preservation issue for their 
lives?
    Sheriff Vore.
    Mr. Vore. Obviously, a public education program that can be 
funded and put out across the Nation would be helpful. But, you 
know, something radical that, you know, I have been thinking 
about for actually, about a year, ever since meth started to 
really come to the forefront in our county, is--and the 
gentleman testified down there that he was in rehab. How many 
times were you in rehab?
    Mr. Priest. Probably about four times in my life.
    Mr. Vore. And that has been my experience, that meth is one 
of those things doesn't react to rehab like, say, some of the 
other drug addictions, because it just envelopes you. It takes 
your whole life over.
    You know, maybe it is time that we have some forced 
treatment programs for individuals who are caught using meth. 
And a lot of times they get put on probation, and then they go 
out and do community service or something of that nature. And 
maybe we need to get drastic here, because for the users they 
have to have some hope coming down the road. I mean, we have 
all seen the pictures in Time. We have heard the testimony 
here. If it gets to a point, then there is no point of return, 
and I think that is what we have to get out there and that is 
what we have to stop.
    And quite honestly, though, for the cookers and for the 
manufacturers, I think there has to be some lengthy, mandatory 
terms in prison to where you are removed from society, and you 
can no longer participate in the activity. So it is going to be 
a--like a two-pronged attack. Actually, a three-pronged attack 
with the education end of it.
    And I think this is something that--you know, we always 
talk about being tough on the war on drugs and stuff. But if we 
don't get tough on this, in 10 years this is going to make 
crack look like candy.
    Mr. Turner. Sheriff Fizer, I know that in Clinton County 
you guys have made an effort to communicate. How is that going, 
and what can we do better?
    Mr. Fizer. We have actually had some pretty good success, I 
believe, and I guess I agree with Sheriff Vore. Something 
nationwide would be great, or if we could even go from the 
States down to the local sheriff's offices to start 
organizations and mainly make the parents aware, which this 
Coalition for a Drug-Free Clinton County--it is a lot of--one 
of their main things, too, is to get the parents involved.
    We are already teaching the kids in schools the dangers of 
it, but the parents, because a lot of them are busy working, 
they don't take the time to know where their kids are at, and a 
lot of them is, ``What is this meth stuff that I read in the 
newspaper?'' There are still a lot of them that doesn't even 
know about it, which is surprising in the community, but--so 
that is what we are trying to do, and I would like to see more 
of that.
    I think if we educate them enough--we have township 
trustees that we went and gave talks to, and showed them the 
propane tanks, and--because we have a lot of--we refer to them 
as mobile meth labs. We get those also, and they have actually 
seen some of this in the ditch lines and didn't know what it 
was.
    So it is--we have had a lot of success thus far. We just 
would educate everybody that this is what is out there. And 
like I said, we are busting them right and left, but we are 
only doing it because the community is participating. They are 
calling in constantly.
    Mr. Turner. Sheriff Ariss, in your role with the regional 
perspective, are you seeing some best practices and some things 
that we need to do?
    Mr. Ariss. Yes, sir, I think I have to agree with everybody 
else. There is a problem out there. We are fortunate in our 
area with having the drug task force, you know, in the county, 
and John Burke and his group, what they are doing right now.
    And as I said earlier in my statement, that we ask for the 
participation, you know, within the county itself, you know, 
for funding to keep it going. And all of the villages and the 
townships and the county commissioners are funding it, so we 
have that buy-in early on. And selling it back to the 
community, John, with this new vehicle that he has purchased, 
it is a demo vehicle.
    We can take it out into the field, around to different 
areas, and show them what is going on, and then working--again, 
we have a rural area, working with our farm group and showing 
the farmers what they need to be alert of and what can happen. 
And just selling the program, which is what it is all about, 
selling the people and they have a buy into it.
    And I think as Sheriff Vore has talked, we have to explain 
and show them that this is very important. But, again, if you 
are going to do it, you are going to make a cooker, you are 
going to be the manufacturer, you will have to pay the price. 
And it has to be sure they go to jail, and we have to have the 
combinations.
    And locally it is tough for all of us, because we are all 
bursting at the seams and looking for bed space. But, again, 
there has to be a sure shot. If you are going to do these 
things, this is what the penalty is going to do, just like the 
nun did when we were in grade school. You know, if you stick 
your hand out there, you are going to get knocked.
    But, again, it has to be sure, you know, what is going to 
be effective at the same time.
    Mr. Turner. Any other thoughts?
    Mr. Burke. Yes. You know, we have done a lot of awareness 
and education, and what it does is--and it ultimately looks 
like a bad thing, is it will increase your meth labs, because 
there is a lot more of them out there than we are finding. And 
what happens is when you increase the education, the citizens 
get involved, which you mentioned before is so important.
    And they start to smell odors in their neighborhood, and 
they call the police, and hopefully we have educated the 
deputies and the other law enforcement and they realize what it 
is. And this has happened over and over again, so you get more 
of them, but that is not a bad thing because you are finding 
those that you didn't find before.
    The other thing I think is, it kind of sounds simplistic, 
but we just need to all really stay on this problem. I mean, we 
cannot back off of it one bit. As I told you, with Cincinnati, 
I saw the heroin problems in the cities. And if this goes as 
big as the heroin problem went, it will make heroin look very 
small compared to this meth problem.
    I mean, it is cheaper to make, it is a much longer high, 
there is paranoia involved, there is extreme risk for--I think 
it was mentioned, people that would normally not ever shoot a 
police officer may very well shoot somebody while they are 
under the influence of meth. And so the concerns and the 
issues, or a fire person or whoever happens to be around the 
property.
    So, you know, education is crucial, but so is staying on 
this and convicting folks that are manufacturing and somehow 
trying to find I think better rehabilitation, because my 
understanding is there is like a 6 percent successful rehab 
rate across the country for meth, and that has to get a lot 
better.
    Mr. Turner. Mr. Grandey, as you pursue prosecutions, are 
the stories of what is happening in these people's lives being 
able to be told, so that others can know the dangers?
    Mr. Grandey. Well, let me give you an example of that, and 
this is what makes meth so baffling to me. We had a young man 
who we sent his father to prison for manufacturing, we arrested 
his older brother for manufacturing, and just prior to his 
trial he committed suicide in jail.
    This young man we didn't think was a manufacturer. Shortly 
thereafter, he was arrested for manufacturing. Nice kid, worked 
hard, but he got involved in the same thing his family was.
    In trying to help him, he was sent to the Star Justice 
Program, which is a lockdown rehabilitation program. This young 
man was an absolute poster child for that program. He would go 
out with the director to Rotary Clubs and Lions Clubs and tout 
the benefits of the Star Justice Program.
    I think it was 3 months after he was released from that 
program we indicted him again for manufacturing. That is what 
baffles me about this, the addictive nature of it.
    Mr. Priest says if you get back around these people, you 
are right back into it again. And I don't know how you deal 
with that. I know my sheriff and his deputies have gone out and 
given educational programs to the schools, parents groups, 
trustees, farm bureaus. And like Commander Burke said, yes, 
people became more alert, and we have gotten more labs, but the 
people who are involved in doing this, I don't know how you 
reach them with this, you know, and you keep them from 
starting, because I have never seen anything.
    I spent 10 years in the system prosecuting before I got 
elected to my current position, and I have never seen anything 
where people who--and, you know, a lot of them really want to 
quit and just can't do it, and they fall back into the same 
trap.
    It increases problems, you know, for my health department, 
because somebody says we have a house now that is contaminated. 
I have health department issues that I have to deal with as the 
county prosecutor. I have domestic violence charges, I have 
neglect and dependency charges, you know, which all just 
mushrooms as far as the prosecution.
    I mean, it affects every aspect of everybody's life. And it 
just baffles me that those people that I have seen who I 
believe honestly want to quit, and as part of our sentencing 
recommendations was treatment, would successfully complete 
that--I mean, as far as, you know, everybody that is in the 
program, I mean, they have successfully kicked this habit and 
they are ready to go back into society, and within a short 
period of time they are back in my system again.
    And it is just so frustrating, because, you know, part of 
my job--yes, I am a prosecutor, but part of my job, I believe, 
is quite frankly to do justice. And if that is helping somebody 
and their family by making a recommendation of treatment, or 
whatever, I am willing to do that, and take the criticism that 
sometimes comes with that. But it is so frustrating with 
methamphetamine users. We just don't get there.
    And hopefully through all of these discussions somebody 
will come up with a solution for that, but it just baffles me 
in dealing with it.
    Mr. Turner. Commissioner, I know your county, Clinton 
County, has been very active in trying to get the word out, 
working in the schools and the community. What more do you 
think we need to do, or can do? Because it clearly is a message 
of, if you start this drug, you will ruin your life.
    Mr. Riley. As was mentioned a moment ago, we can't give up. 
We have to keep plugging away and giving the same message and 
being very consistent with the message. Anything that we can do 
to limit the availability of the components I think we have to 
do it.
    In getting ready for this, I went to several of the 
pharmacies in town. Most of them had the ephedrine and 
pseudoephedrine products back behind the counter. But I 
happened to get one of my wife's prescriptions filled 
yesterday, and I turned to my right and there were several 
blister packs of Sudafed right there. I could have, if I had 
wanted to, I could have grabbed probably 24, 30 of them, and 
been out the door. So it is still available.
    I think we need to do everything that we can to make it 
unavailable. And it is becoming more and more pervasive. Right 
here in Clinton County I have heard township trustees referring 
to a small village as ``meth land.'' It has become that well 
known in that area, and the sheriff is doing all that he can. 
But it is so insidious and there are so many of them, and, as 
Mr. Priest said, one cooker will teach two cookers, two of them 
teach two more cookers, and the next thing you know, with that 
geometric progression, the problem grows more rapidly than we 
would ever have thought.
    I have learned things here today that have shaken me, and I 
have lived in this community my entire adult life, and I know 
that there are things going on that are horrendous and are 
devastating to people's lives. We cannot give up on the hope 
that we can do something good about this, and I think we have 
to give that hope back to people.
    What Mr. Priest has done I think is extraordinary. My 
understanding from what I have heard is that this is one of if 
not the most highly addictive substances that people will start 
using. They continue to want to chase that high, that 3-day 
high that Mr. Priest described. You know, they can go into 
rehab, they come out of rehab or they come out of prison and 
they immediately want to get that high back again.
    I applaud Mr. Priest for having the guts to separate 
himself from those people, if that is what it takes. But that 
is an extraordinary example, and, unfortunately, most people 
can't do that.
    Education and limitation of the ingredients, and basically 
it goes down to what was said earlier, we just can't give up 
whatever effort on whatever front it might be to try to 
educate, limit, and try to treat these people and give them the 
hope. And, of course, law enforcement is still going to be a 
vital, vital key in that limitation.
    Mr. Turner. I want to thank all of the panel members for 
both the preparation time that you have taken, the time that 
you have taken today to help this committee as they have been 
putting together a national record on this issue, so that they 
can look for national and Federal policy. And I want to thank 
you for everything that you do at each of your communities, 
because you are making an impact on people's lives.
    And I want to thank the chairman. I know, Chairman Souder, 
you have additional questions. I do not, so at this point I 
just wanted to take an opportunity to thank you again. You have 
stepped out of Washington, and you have stepped out of your 
district and taken your time to be here, so that each of these 
stories can be told and be part of your record. And you 
certainly have been a leader in looking for national solutions.
    And your passion that you have for this is just so obvious 
and appreciated. So thank you for being here, and thank you for 
your attention to this. I think, as Mr. Priest has told us, 
this is destroying people's lives, and your efforts hopefully 
will save some.
    Mr. Souder. Thank you. And thank you for bringing us to 
Ohio. This has been really informative, and your continued 
leadership in Congress and help with this as we try to move 
additional legislation this fall and finish up on our 
appropriations bill.
    I have some very specific questions again. Does Ohio have a 
drug endangered children law or program? Are any of you 
familiar with that? Or, Mr. Grandey, you wouldn't look at--in 
other words, off in California, the first meth hearing this 
committee held, it was before I was chairman, came off of a 
case where--there were several cases, one where the meth 
parents put their kids in a stove to warm them up and cooked 
them to death. There were some explosions, and it led to a 
child endangered law, which California has the oldest, which is 
an additional tool for prosecutors and also for courts to 
remove the children.
    Mr. Grandey. We have a child endangerment statute, as well 
as neglect and dependency.
    Mr. Souder. Related to meth, it would be if you are cooking 
at home, you automatically become subject to----
    Mr. Grandey. We don't have anything specific as to meth. It 
is one factor that goes into that, and one of the factors that 
my Children Services Board can use to file a neglect dependency 
endangerment charge in order to remove the children. But as far 
as enhancing any type of penalty against the parents, the 
penalty for child endangering is less than we had for the 
manufacturing or the possession, so that normally doesn't even 
get filed.
    They are looking at, you know, a stiffer sentence on the 
manufacturing or the possession, or whatever. But it is a tool 
that we can use, and my juvenile prosecutor can use, to remove 
the children, place them into foster care.
    Mr. Souder. So if I can ask a technical legal question, in 
trying to draft--if we do a national effort, although the 
furthest would be done at the State level, that--you talked 
about the additional laws. The advantage of having it be an 
automatic that can be invoked is that you wouldn't have to 
establish--in other words, if you have to--if the penalty is 
short, we are finding in a lot of meth laws around the country, 
and even as we--this is a side point, but this illustrates our 
challenge.
    As we look at the illegal immigration on the border and the 
terrorists on the border, the drug people coming across the 
Mexican border, one of our subpoints in Homeland Security is 
what we call OTMs, other than Mexicans, because they can't be 
deported back to Mexico. So we bring them here and we release 
them into the United States.
    Part of the question is who is running these? What we have 
learned at one of our hearings, the people who run these 
groups, the penalties are so small that no prosecutor or U.S. 
Attorney wants to take the cases, because the cost of preparing 
the case is so great for such a short term, penalty term. So it 
has inhibited our ability to control our border to some degree.
    Well, some of this is the same thing. If you have to do a 
whole, long process to establish it for a short penalty--on the 
other hand, if it is, in effect, a bonus charge, when we talked 
about where it is an--you could automatically invoke it if 
there are children involved in the house, then you wouldn't 
have to do a long establishment, if you de facto determine and 
would add an additional penalty if there are children in the 
house. Is that feasible?
    Mr. Grandey. We do have some enhancements if there are 
children in the house. I believe it raises the level of offense 
by one degree from a Felony 3 to Felony 2 if there are 
juveniles in the house. And I have used that, you know. And one 
of the problems that I have, quite frankly, is I mentioned the 
case load that we have, and, you know, like I said, I only have 
one felony assistant. And I have a lot of other things to do 
besides felony work.
    We average--right now, we are having anywhere from 6 to 12 
cases set for trial all on the same day. And, unfortunately, I 
don't like to do it, but unfortunately I have to. And then, a 
lot of times you are negotiating prison time, and sometimes 
these things get away.
    Mr. Souder. It's one of the mythologies that we hear about 
sentencing in the United States, because this is everywhere in 
the United States, the bulk of the trials are being negotiated. 
So, therefore, if you have gotten an actual felony conviction, 
you've probably been pretty high up the chain.
    You hear all the time people are in prison for being 
convicted just for marijuana use. If you convicted them for 
marijuana use, I don't know very many prosecutors who do that. 
What it is a negotiated sentence down to marijuana use, because 
that was the easy one to get, and the news media has done a 
terrible disservice on who we're locking up, because most of 
these are negotiated bonds.
    If I can mention one other thing that we are--it came up 
yesterday, and it is a big challenge for conservative 
Republicans, because we have really stressed strong families. 
And surrounding family rehabilitation, and that type of thing. 
I want to ask Mr. Priest a quick question. Did most of the 
people that you know who worked with us, were they married?
    Mr. Priest. Yes, married.
    Mr. Souder. Both husband and wife involved?
    Mr. Priest. Yes.
    Mr. Souder. But as we start to talk to a number of the 
judges, and in the prosecutors' office and the criminal 
rehabilitation and drug treatment people in Fort Wayne, one of 
the things that we thought was different is we usually think of 
alcohol abuse and other drugs as having an enabler in the 
family, and a user. And what seemed to be a little different in 
meth is this is a challenge to how we look at family 
rehabilitation when there is the whole family that is involved 
in it.
    And we have to have a bias toward trying to put the kids 
back into the family, and we are going to have to look at 
family court and child endangerment questions, because putting 
the kids back into--because the kids can be functional in 
school.
    It is going home to an environment that they can get blown 
up, and that this is a new part of the side part of meth that 
is becoming more into discussion, because it is a challenge to 
the bias and the structure of our family court, our 
rehabilitation, our foster care laws, because this is a 
different type of thing that we face in other drugs, because it 
is almost always, it seems like, that both parents are involved 
in the production. The Mom and Pop labs seem to be different 
than the crystal meth on this, too, which is an interesting 
variation.
    Another question is: do any of your counties have Meth 
Watch? Are you familiar with that term? Why do you think that 
this hasn't been published more? None of you have ever even 
heard of it?
    When people say, ``I don't understand why we don't have a 
national strategy,'' this is part of it. I mean, how can it not 
be out? It was next door in Oklahoma. It was just as effective, 
and it didn't cost as much. It basically is a reporting process 
that goes to the pharmacies, that when they see people getting 
a certain number of blister packs. I mean, a small town, I grew 
up in a small town, it's not like you don't know who is coming 
in. And if you don't know who is coming in, that's news, too.
    If there is someone coming into a small town, and picking 
up those blister packs, and you don't know them, that is worth 
a notice. And what has happened is that the word quickly gets 
out, as we heard from Mr. Priest, they worry about getting 
busted. If they see somebody calling up, and if a car goes by, 
that is going to have an impact as much as the pharmacy has in 
putting them behind the counter, because that doesn't get into 
the law enforcement system.
    They can still do it--now blister packs, we have to get the 
quantity down. But we have to look at the individual citizens 
to do that, and we have to have some communication going across 
between people who are doing this around the country.
    Let me ask another question for those of you who have 
worked with the task forces and the community groups. And I am 
kind of baffled as to why this doesn't occur in the United 
States, and I think that it is an appalling collapse of the 
Department of Education. I think two of you are involved in the 
Drug Free Task Force. Have you sat the local schools down 
together and said, ``What are you doing with your drug-free 
money?'' Go ahead. I am just wondering, because every school 
gets a certain amount of drug-free money. Do you sit down in 
any of your communities and say not, ``What could we do with 
new money?'' but, ``What are you doing with your money? And how 
does it relate to an overall strategy?''
    Mr. Burke. I am co-chair of the Coalition. It is funny you 
bring that up. It is exactly what we are getting ready to do at 
the next meeting. We just changed chairmanships, and I think it 
is a very valid point--what are we doing?
    I think there is actually some money that is not being 
spent at all and going unspent. And it is very timely that you 
mentioned that. We are doing that.
    And as far as the Meth Watch, we don't call it that. But we 
certainly have retailers and pharmacies that do participate. We 
encourage them to try and get license numbers without 
endangering themselves, and they do some of that. We don't have 
it organized. It sounds like Crime Watch? Is that kind of what 
it is?
    Mr. Souder. It is a variation, and it can be done in 
different ways, different counties implement it in different 
ways. But what it appears to be is--that type of program 
wouldn't work in Dayton or Fort Wayne. But in a small town 
where the problems are most concentrated, you have a pretty 
good handle of who is coming in.
    There was a group coming from Bowling Green, KY, who 
traveled all the way up here stealing and buying Sudafed, and 
ended up in Warren County and a Kroger employee called, and 
that's how they got caught.
    I have been very critical about the current proposal that 
we reduce the program, a number of you have heard of that, the 
task force is the height of money because information comes up 
in the local law enforcement, the State and local law 
enforcement. But we are going to have to, rather than drowning 
in the everyday problems, one of the things that we need is--
you guys are doing the point of arrest and have the data.
    Sometimes these statistics and reports you're doing can be 
very valuable, because it is how we can--we don't look at the 
big busts if we try to explain it to the people in Washington. 
You can't see the big busts if you drive the people who are 
doing the little busts, because it is the little busts that we 
turnup. You do negotiated sentences for information. Where did 
you buy it? Who did you buy it from? And we go from there. A 
huge challenge--my first--I was a staffer in a place in Indiana 
when I was working for a Senator, and the Richmond, IN 
prosecutor wanted to take down the biggest bust in the history 
of Richmond. Unfortunately, the group was also involved in the 
biggest bust in the history of Indiana over in Indianapolis, 
which, of course, they were waiting to see because they traced 
them to Kansas City, to an even bigger network, which was 
coming into the United States from Mexico. And we were trying 
to bust this whole network, so we could figure out how to reach 
a whole region.
    Unfortunately, the local prosecutor took him down, and we 
didn't get the network. His response was, ``People are dying 
and you guys could be working on a network forever.'' This is 
the constant tension that we have to work through, particularly 
when we are trying to move through something like that, of how 
can we learn from the experience, how can we get the data in, 
how can we get the, when we have a program with nuances, where 
is the clearinghouse going to be to get the information down 
and say ``Here's how they adjusted, we did this in Oklahoma; 
here is how they adjusted. When we did this variation, this is 
how they adjusted.''
    It is one of the things we have been a little slow on in 
Iraq, although now we have minute-by-minute reporting on 
specific car bombs to figure out the variations they're doing. 
We have 20,000 people in the United States, 25,000 a year die 
of narcotics, but Iraq, and for that matter September 11th, 
seem small, and we need to have the seriousness about how we 
are going to do some of this interconnectedness.
    And you guys are on the front line, and the drug-free 
schools program is one of my frustrations. We got money back 
in, but we have to get some semblance of order. And one idea 
that I'm hammering on in my district as well as elsewhere is 
that we need to get the kids involved. Most of these schools 
have a little radio, or at least announcements, or sometimes 
even a T.V. station at their high school. We need some kind of 
award incentive. Procter & Gamble wanted to publicize Crest 
toothpaste, gave the Crest award $15 for each school district's 
most-creative anti-meth ad, and get the kids thinking of what 
they can put in their own announcements at their own school 
that--how can we integrate the young people in that as well.
    One last question to Sheriff Ariss. You have referenced 
anhydrous ammonia, and there was a case in your county where 
300 people had to be evacuated?
    Mr. Ariss. Yes.
    Mr. Souder. Was there any damage, any residual from that? 
What level of endangerment did we get into? Could you describe 
a little bit what worked?
    Mr. Ariss. I'm going to defer to John, because John 
Berkeley in Drug Task Force really took over that effort.
    Mr. Berkeley. That was directly related to a person trying 
to transport anhydrous in a propane tank, and it actually ended 
up being--the saving grace there was the weather. The weather 
was perfect. Had it been a windier day--there ended up being a 
large cloud that formed over this little town, and we evacuated 
it, and it eventually dispersed.
    Of course, the problem with that is inhaling these fumes 
into your lungs. It could have been a disaster. If the weather 
had been different, as I was told, it would have been much 
different, even in a town of 300-and-some.
    Mr. Burke. I have a town that had a similar situation with 
a super tank, and they put it in town, which was a big mistake.
    Mr. Berkeley. That is exactly what this is, and it is 
exactly what----
    Mr. Burke [continuing]. It could have obliterated 700 
people. But I tried to figure out from that story where the 
danger points are. The wind is one, concentration.
    Mr. Berkeley. The one thing that was a danger, though, was 
the fire--volunteer fire lieutenant, and he got there very 
quickly and got it shut off. That was one extreme. What it did 
do was, it finally made them put a fence around this facility, 
which we had tried to get done for some time. And that 
effectively, along with an alarm system, stopped the entries in 
there. But it could have been catastrophic. No question.
    Mr. Souder. OK. Anything anyone else wants to add?
    Mr. Grandey. Along that line, in my written remarks I 
mentioned this--one of my biggest fears is, especially with the 
local land, and it is going to happen, it is just a matter of 
time--but one of my biggest fears is that we are going to have 
a rear-end collision.
    And because of the chemicals being used and the volatile 
nature of those, either from the explosion or from leaking from 
the anhydrous, we are going to have a major catastrophe in one 
of these smaller communities. And it scares me to think about 
what could happen.
    When I prosecuted a case where four guys were manufacturing 
in the lab and it blew up, when you think about the force of 
that explosion, and you put it in a downtown residential area, 
it is catastrophic.
    Mr. Souder. I have sort of a variation of that story, that 
Nick and I were up in a small town in Washington, and that one 
of the most famous pre-September 11th cases was the LAX bomber 
that was taken down, who was going to blow up LAX Airport, and 
had come all the way across Canada and had crossed at this 
little ferry post. And the local Customs people wound up 
detaining the person, getting into the trunk, thought they had 
a meth lab in the car that we are talking about. It turned out 
that they turned in this stuff to the local police department 
and it was nitroglycerin, enough to take out the entire LAX 
airport.
    So the danger with all that kind of stuff is just--it is a 
different world than when we were young.
    Anybody have anything else? Thank you very much for your 
participation. Appreciate your time. We have a bipartisan 
effort going on in Washington right now and we're going to push 
this, and this is something the local people know. And we are 
trying to respond. Thank you very much for your testimony.
    [Whereupon, the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5173.035

[GRAPHIC] [TIFF OMITTED] T5173.036

[GRAPHIC] [TIFF OMITTED] T5173.037

[GRAPHIC] [TIFF OMITTED] T5173.038

[GRAPHIC] [TIFF OMITTED] T5173.039

[GRAPHIC] [TIFF OMITTED] T5173.040

[GRAPHIC] [TIFF OMITTED] T5173.041

[GRAPHIC] [TIFF OMITTED] T5173.042

[GRAPHIC] [TIFF OMITTED] T5173.043

[GRAPHIC] [TIFF OMITTED] T5173.044

[GRAPHIC] [TIFF OMITTED] T5173.045

[GRAPHIC] [TIFF OMITTED] T5173.046

[GRAPHIC] [TIFF OMITTED] T5173.047

[GRAPHIC] [TIFF OMITTED] T5173.048

[GRAPHIC] [TIFF OMITTED] T5173.049

[GRAPHIC] [TIFF OMITTED] T5173.050

[GRAPHIC] [TIFF OMITTED] T5173.051

[GRAPHIC] [TIFF OMITTED] T5173.052

[GRAPHIC] [TIFF OMITTED] T5173.053

[GRAPHIC] [TIFF OMITTED] T5173.054

[GRAPHIC] [TIFF OMITTED] T5173.055

[GRAPHIC] [TIFF OMITTED] T5173.056

[GRAPHIC] [TIFF OMITTED] T5173.057

[GRAPHIC] [TIFF OMITTED] T5173.058

[GRAPHIC] [TIFF OMITTED] T5173.059

[GRAPHIC] [TIFF OMITTED] T5173.060

[GRAPHIC] [TIFF OMITTED] T5173.061

[GRAPHIC] [TIFF OMITTED] T5173.062

[GRAPHIC] [TIFF OMITTED] T5173.063

[GRAPHIC] [TIFF OMITTED] T5173.064

[GRAPHIC] [TIFF OMITTED] T5173.065

[GRAPHIC] [TIFF OMITTED] T5173.066

[GRAPHIC] [TIFF OMITTED] T5173.067

[GRAPHIC] [TIFF OMITTED] T5173.068

[GRAPHIC] [TIFF OMITTED] T5173.069

[GRAPHIC] [TIFF OMITTED] T5173.070

[GRAPHIC] [TIFF OMITTED] T5173.071

[GRAPHIC] [TIFF OMITTED] T5173.072

[GRAPHIC] [TIFF OMITTED] T5173.073

[GRAPHIC] [TIFF OMITTED] T5173.074

[GRAPHIC] [TIFF OMITTED] T5173.075

[GRAPHIC] [TIFF OMITTED] T5173.076

[GRAPHIC] [TIFF OMITTED] T5173.077

[GRAPHIC] [TIFF OMITTED] T5173.078

[GRAPHIC] [TIFF OMITTED] T5173.079

[GRAPHIC] [TIFF OMITTED] T5173.080

[GRAPHIC] [TIFF OMITTED] T5173.081

[GRAPHIC] [TIFF OMITTED] T5173.082

[GRAPHIC] [TIFF OMITTED] T5173.083

[GRAPHIC] [TIFF OMITTED] T5173.084

[GRAPHIC] [TIFF OMITTED] T5173.085

[GRAPHIC] [TIFF OMITTED] T5173.086

[GRAPHIC] [TIFF OMITTED] T5173.087

[GRAPHIC] [TIFF OMITTED] T5173.088

[GRAPHIC] [TIFF OMITTED] T5173.089

[GRAPHIC] [TIFF OMITTED] T5173.090

[GRAPHIC] [TIFF OMITTED] T5173.091

[GRAPHIC] [TIFF OMITTED] T5173.092

[GRAPHIC] [TIFF OMITTED] T5173.093

                                 <all>

</pre></body></html>
